APPENDIX

TABLE OF APPENDICES
Appendix A
Opinion, Court of Appeals for the Ninth
Circuit, Securities and Exchange
Commission v. Mitchell J. Stein,
No. 15-55506 (Oct. 11, 2018)………………...App-1
Appendix B
Order, Court of Appeals for the Ninth
Circuit Denying Petition for Review,
Securities and Exchange Commission
v. Mitchell J. Stein, No. 15-55506
(Feb. 21, 2019)…..……………………….…..App-21
Appendix C
Order, Court of Appeals for the Ninth
Circuit Order Directing SEC to Respond
to Appellant’s Petition for Rehearing or
Rehearing En Banc, Securities and
Exchange Commission v. Mitchell J.
Stein, No. 15-55506 (Jan. 4, 2019)………..App-22
Appendix D
Final Judgment against Mitchell Stein,
United States District Court for the
Central District of California, Securities
and Exchange Commission v. Heart
Tronics, Inc., et al.; Case No.
SACV11-1962-JVS(ANx)
(Mar. 3, 2015)…………………………………App-23
Appendix E
Civil Minutes, United States District Court
for the Central District of California,
Granting in Part and Denying in Part

Plaintiff's Motion for Summary Judgment
Against Defendant Stein and Denying
Defendant Stein’s Motion for Summary
Adjudication, Securities and Exchange
Commission v. Heart Tronics, Inc., et al.;
Case No. SACV11-1962-JVS(ANx)
(Feb. 18, 2015)………...……………………...App-32
Appendix F
Reporter’s Transcript of Proceedings,
United States District Court for the
Central District of California, Securities
and Exchange Commission v. Heart
Tronics, Inc., et al.; Case No.
SACV11-1962-JVS(ANx)
(Feb. 17, 2015)………………………………...App-53
Appendix G
Complaint, Securities and Exchange
Commission v. Heart Tronics, Inc., et al.;
Case No. SACV11-1962-JVS(ANx)
(Dec. 20, 2011)………………………………...App-72
Appendix H
Constitutional Provision Involved….…….App-133
U.S. Const. amend. VII…….……..…….App-133

App-1
Appendix A
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________
No. 15-55506
D.C. No. 8:11-cv-01962-JVS-AN
________________
SECURITIES AND EXCHANGE COMMISSION,
Plaintiff-Appellee,
v.
MITCHELL J. STEIN.
Defendant-Appellant.
________________

Appeal from the United States District Court for the
Central District of California
James V. Selna, District Judge, Presiding
________________
OPINION
________________
Filed: Oct. 11, 2018
________________
Argued and Submitted March 13, 2018
Before: J. Clifford Wallace, Marsha S. Berzon,
and Consuelo M. Callahan, Circuit Judges.
WALLACE, Circuit Judge:

App-2
Mitchell Stein, an attorney, appeals from the
district court’s summary judgment in favor of the
Securities and Exchange Commission (SEC) on the
SEC’s claims that Stein violated various federal
securities laws. The district court entered summary
judgment on six of the SEC’s claims on the ground that
Stein’s prior criminal conviction precluded him from
contesting the allegations at issue in the civil case. We
have jurisdiction under 28 U.S.C. § 1291, and we
affirm.
I.
In December 2011, the SEC brought a civil
enforcement action against Stein alleging that Stein,
while acting as purported outside counsel to codefendant Heart Tronics, engaged in a series of frauds
designed to inflate the company’s stock price so that
he could profit from selling its securities to investors.
The alleged scheme was wide ranging, but centered on
allegations that Stein concocted three false purchase
orders with fictitious companies, and used these
orders as the basis for SEC filings and press releases
touting bogus sales of Heart Tronics’ “Fidelity 100”
heart-monitoring system.
The purchase orders at issue ostensibly were
agreed to during September and October 2007. The
first purchase order reflected a sale of 180 units of the
Fidelity 100 for $1.98 million. The SEC alleges that an
individual later identified as Thomas Tribou signed
the purchase order and sent Heart Tronics $50,000 as
a deposit. However, the copy of the order that was
counter-signed by the then-CEO of Heart Tronics and
returned to Tribou identified the customer as “Cardiac
Hospital Management” (CHM). The SEC maintained

App-3
that CHM was a fictitious entity not known to Tribou.
The second and third purchase orders reflected sales
to a fictional Israeli company called “IT Healthcare”
for $3.3 million and $564,000, respectively.
Stein went to great lengths to make the
purchase orders appear legitimate. Specifically, the
SEC alleges that Stein and his personal assistant, codefendant Martin Carter, created letters and
documents purportedly originating from CHM and IT
Healthcare
to
create
the
appearance
of
communication between Heart Tronics and its
“customers.” One such letter was from a purported
CHM purchasing agent named “Toni Nonoy” asking
for products to be sent to a “new address” in Japan.
Other documents were from fictitious people
supposedly affiliated with IT Healthcare confirming
sales orders and providing updated shipping
instructions. The SEC alleges that all these
documents were fraudulent and that Stein simply
made up the names.
During the same period in which Stein drew up
the alleged fraudulent purchase orders, he also
orchestrated the dissemination of press releases
reporting the sales. The SEC alleges that based on
information provided by Stein, John Woodbury, Heart
Tronics’ securities lawyer, published three press
releases touting the more than $5 million in purported
sales to CHM and IT Healthcare. The SEC also alleged
that Stein caused the fraudulent sales orders to be
incorporated into Heart Tronics’ SEC filings from
approximately September 2007 through August 2008.
Based on these and other allegations, the SEC
asserted various claims against Stein, including

App-4
securities fraud in violation of Section 10(b) of the
Securities Exchange Act (Exchange Act), Exchange
Act Rule 10b-5, and Section 17(a) of the Securities Act;
aiding and abetting violations of Section 10(b) and
Rule 10b-5; selling or offering for sale unregistered
securities in violation of Section 5(a) and 5(c) of the
Securities Act; falsifying books and records in
violation of Exchange Act Rule 13b2-1; knowingly
falsifying books and records in violation of Section
13(b)(5) of the Exchange Act; and aiding and abetting
Heart Tronics’ violations of the reporting, recordkeeping, and internal controls provisions of the
Exchange Act (Sections 13(a), 13(b)(2)(A), and
13(b)(2)(B)) and Exchange Act Rules (Rules 13a-1,
13a-11, 13a-13, and 12b-20).
Concurrent with the SEC’s case against Stein,
the Department of Justice (DOJ) filed a criminal case
against him in the Southern District of Florida arising
out of the same fraudulent conduct alleged in the civil
case. The fourteen-count indictment charged Stein
with three counts of securities fraud (18 U.S.C. §
1348), three counts of wire fraud (18 U.S.C. § 1343),
three counts of mail fraud (18 U.S.C. § 1341), one
count of conspiracy to commit mail and wire fraud (18
U.S.C. § 1349), three counts of money laundering (18
U.S.C. § 1957), and one count of conspiracy to obstruct
justice (18 U.S.C. § 371). The DOJ eventually moved
to intervene and stay discovery in the SEC action
pending the outcome of the criminal proceeding. The
district court granted the unopposed motion and
stayed the civil case in April 2012.
The DOJ’s case against Stein tracked the main
allegations asserted in the SEC’s complaint. During a

App-5
twoweek trial, the DOJ presented evidence that Stein
created three fraudulent purchase orders for CHM
and IT Healthcare; that he orchestrated the
publication of press releases touting the fraudulent
purchase orders; that he made up documents
purported to be from employees of CHM and IT
Healthcare to create the impression the purchase
orders were legitimate; and that he caused the false
information to be incorporated into Heart Tronics’
SEC filings. During closing arguments, the
prosecution focused the jury’s attention on the “false
purchase orders,” “false press releases,” and “false
SEC filings” that underpinned Stein’s scheme. At the
end of trial, the jury returned guilty verdict against
Stein on all counts. The district court sentenced Stein
to 17 years’ imprisonment, and ordered him to forfeit
over $5 million and pay over $13 million in restitution.
Stein appealed from his judgment of conviction
and sentence, arguing, among other things, that the
DOJ failed to produce material, exculpatory evidence
in violation of Brady v. Maryland, 373 U.S. 83 (1963),
and that the DOJ knowingly relied on false testimony
in violation of Giglio v. United States, 405 U.S. 150
(1972). The Eleventh Circuit rejected the Brady and
Giglio claims, affirmed Stein’s conviction, but vacated
and remanded Stein’s sentence for a recalculation of
actual losses attributable to his fraud. See United
States v. Stein, 846 F.3d 1135 (11th Cir. 2017).
Following Stein’s conviction, the SEC moved for
summary judgment, arguing that Stein’s conviction
precluded him from contesting the SEC’s allegations
in the civil proceeding. The district court concluded
that Stein’s criminal conviction “necessarily decided”

App-6
the facts needed to establish his liability in the civil
case, and entered summary judgment in favor of the
SEC on the following claims: securities fraud in
violation of Section 10(b) of the Exchange Act,
Exchange Act Rule 10b-5, and Section 17(a) of the
Securities Act; aiding and abetting violations of
Section 10(b) and Rule 10b-5; falsifying books and
records in violation of Exchange Act Rule 13b2-1;
knowingly falsifying books and records in violation of
Section 13(b)(5) of the Exchange Act; and aiding and
abetting Heart Tronics’ violations of the reporting and
internal controls requirements of the Exchange Act
and Exchange Act Rules. This appeal followed.
II.
We review a district court’s summary judgment
de novo. Branch Banking & Trust Co. v. D.M.S.I.,
LLC, 871 F.3d 751, 759 (9th Cir. 2017). We also review
de novo whether issue preclusion is available. Dias v.
Elique, 436 F.3d 1125, 1128 (9th Cir. 2006). If issue
preclusion is available, the district court’s decision to
apply the doctrine is reviewed for abuse of discretion.
Id.
III.
Issue preclusion bars parties from relitigating
an issue if the same issue was adjudicated in prior
litigation. Resolution Tr. Corp. v. Keating, 186 F.3d
1110, 1114 (9th Cir. 1999). The form of the doctrine at
issue here is “offensive nonmutual issue preclusion,”
which prevents “a defendant from relitigating the
issues which a defendant previously litigated and lost
against another plaintiff.” Syverson v. IBM Corp., 472
F.3d 1072, 1078 (9th Cir. 2007) (quoting Parklane
Hosiery Co. v. Shore, 439 U.S. 322, 329 (1979)). A party

App-7
invoking a defendant’s prior criminal conviction as the
basis for offensive preclusion must demonstrate: (1)
the prior conviction was for a serious offense; (2) the
issue at stake in the civil proceeding is identical to the
issue raised in the prior criminal proceeding; (3) there
was a full and fair opportunity to litigate the issue at
the prior trial; and (4) the issue on which the prior
conviction is offered was actually litigated and
necessarily decided at trial. Ayers v. City of Richmond,
895 F.2d 1267, 1271 (9th Cir. 1990); see also Syverson,
472 F.3d at 1078.
We typically look to four factors (sometimes
referred to as the Restatement factors) to determine
whether two issues are “identical” for purposes of
issue preclusion:
(1) Is there a substantial overlap
between the evidence or argument to
be advanced in the second proceeding
and that advanced in the first?
(2) Does the new evidence or argument
involve the application of the same
rule of law as that involved in the prior
proceeding?
(3) Could pretrial preparation and
discovery related to the matter
presented in the first action
reasonably be expected to have
embraced the matter sought to be
presented in the second?
(4) How closely related are the claims
involved in the two proceedings?

App-8
Howard v. City of Coos Bay, 871 F.3d 1032, 1041 (9th
Cir. 2017); see Restatement (Second) of Judgments §
27 cmt. C (Am. Law Inst. 1982). These factors “are not
applied mechanistically.” Howard, 871 F.3d at 1041;
see Jack H. Friedenthal, Mary Kay Kane & Arthur R.
Miller, Civil Procedure § 14.10 (5th ed. 2015) (“The
assessment of the similarity of issues necessary to
decide whether collateral estoppel should preclude
relitigation of a particular issue varies with the facts
of each case.”).
IV.
We begin our analysis by comparing the record
in the DOJ’s criminal case with the allegations in the
SEC’s enforcement action, to determine whether the
issues actually litigated and determined in the
criminal proceeding are identical to those raised in the
civil proceeding. 1
As outlined above, the DOJ’s criminal case
against Stein focused on his scheme to inflate Heart
Tronics’ stock price by creating false purchase orders,
and using those purchase orders as the basis for false
press releases and SEC filings. The evidence
presented at the criminal trial was that Stein drafted
one purchase order attributed to CHM for $1.98
Stein’s argument that issue preclusion is inapplicable
due to a lack of identity of issues is apparently limited to the
SEC’s claims for violations of Section 10(b) of the Exchange Act,
Exchange Act Rule 10b-5, and Section 17(a) of the Securities Act.
We therefore do not consider the identity of issues between
Stein’s criminal proceeding and the SEC’s other claims.
Brownfield v. City of Yakima, 612 F.3d 1140, 1149 n.4 (9th Cir.
2010) (“We review only issues which are argued specifically and
distinctly in a party’s opening brief”) (quoting Greenwood v. FAA,
28 F.3d 971, 977 (9th Cir. 1994)).
1

App-9
million, two false purchase orders attributed to IT
Healthcare for $3.3 million, and three false press
releases; and then he profited from selling Heart
Tronics’ securities to investors while materially false
information was in the market. In light of this
evidence, the jury found Stein guilty of (among other
offenses) three counts of securities fraud in violation
of 18 U.S.C. § 1348, which means it found the
following facts proved beyond a reasonable doubt, as
instructed by the trial judge: (1) Stein “knowingly
executed or attempted to execute a scheme or artifice
to defraud;” (2) Stein “did so with intent to defraud;”
and (3) “[t]he scheme to defraud was in connection
with any security of Heart Tronics, Inc.” See Emich
Motors Corp. v. Gen. Motors Corp., 340 U.S. 558, 569
(1951) (explaining that trial courts assessing the
preclusive effect of a prior criminal conviction based
on a general verdict determine which issues were
necessarily decided by examining the pleadings,
evidence submitted, jury instructions, and other parts
of the record).
The same fraudulent scheme that underpinned
Stein’s criminal conviction served as the basis for the
SEC’s claims that Stein violated Section 10(b) of the
Exchange Act, Exchange Act Rule 10b-5, and Section
17(a) of the Securities Act. “Section 17(a) of the
Securities Act, and the SEC’s other claims. Brownfield
v. City of Yakima, 612 F.3d 1140, 1149 n.4 (9th Cir.
2010) (“We review only issues which are argued
specifically and distinctly in a party’s opening brief”)
(quoting Greenwood v. FAA, 28 F.3d 971, 977 (9th Cir.
1994)). Section 10(b) of the Exchange Act and Rule
10b-5, prohibit fraudulent conduct or practices in
connection with the offer or sale of securities.” SEC v.

App-10
Dain Rauscher, Inc., 254 F.3d 852, 855 (9th Cir. 2001).
These antifraud provisions prohibit schemes to
defraud, and they prohibit “making a material
misstatement or omission in connection with the offer
or sale of a security by means of interstate commerce.”
Id. at 855–56. Securities fraud in violation of Section
17(a)(1), Section 10(b), and Rule 10b-5 require a
showing of scienter, while violations of Sections
17(a)(2) and (3) require a showing of negligence. Id. at
856.
Having considered the records in the criminal
and civil proceedings in light of the relevant
Restatement factors, we conclude that Stein’s
conviction determined the identical issues the SEC
was required to prove to establish Stein’s liability for
securities fraud. First, both the criminal and civil case
involve the same fraudulent scheme carried out by
Stein: an effort to inflate Heart Tronics’ stock price by
using false purchase orders and false press releases to
profit from the sale of the company’s securities. A
review of the civil complaint, the criminal indictment,
and the trial transcript indicates there is a
“substantial overlap” between the evidence and
argument to be advanced in the SEC’s enforcement
action and that advanced by the DOJ at trial, and that
the claims involved are “closely related.” Restatement
(Second) of Judgments § 27 cmt. c; see Howard, 871
F.3d at 1041. Therefore, these factors support the
conclusion that the issues previously decided in the
criminal trial are identical to those at issue in the civil
case.
Second, the SEC’s securities fraud claims
involve “the application of the same rule of law” as

App-11
that involved in the criminal case. Restatement
(Second) of Judgments § 27 cmt. c. Stein’s conviction
required the jury to find (1) a scheme or artifice to
defraud, (2) with fraudulent intent, (3) in connection
with any security. See 18 U.S.C. § 1348. These findings
encompass the SEC’s claims, which require proof of
the same elements except that Section 17(a) prohibits
fraud “in the offer or sale of any securities,” which was
what was at stake in the criminal trial, and Sections
17(a)(2) and (3) do not require scienter. Therefore, the
DOJ proved beyond a reasonable doubt the same
issues the SEC needed to prove only by a
preponderance of the evidence. There is no difference
in the applicable legal standards that would affect the
outcome of the civil case.
Finally, pretrial preparation and discovery
related to the criminal proceeding could “reasonably
be expected” to have embraced the issues sought to be
presented in the SEC’s civil case. Restatement
(Second) of Judgments § 27 cmt. c. The DOJ’s
prosecution of Stein involved the same fraudulent
scheme—including the same false purchase orders,
fictitious companies, made-up names, and false press
releases—at issue in the civil action. Given the nearly
complete overlap of facts, there is no issue of
significance presented by the SEC’s action that could
be expected to fall outside pretrial preparation and
discovery related to the criminal proceeding.
In sum, the issues the SEC seeks to preclude
Stein from litigating in the civil action are identical to
the issues litigated and decided in the DOJ’s criminal
case. Accordingly, the district court did not err in

App-12
entering summary judgment based on the preclusive
effect of Stein’s conviction.
V.
Stein disagrees, and we turn now to his
arguments. Stein first contends that the precise issue
as to why the $1.98 million CHM purchase order was
fraudulent at issue in this action was not actually
litigated and decided in his criminal case. Stein argues
that the DOJ’s position in the criminal case was that
the CHM purchase order was “all made up” and “never
happened,” while the SEC’s position in this case is
that Tribou signed the CHM order. Stein contends
that because the SEC alleges that Tribou signed the
CHM order, the SEC in effect admits that the order
was not fraudulent.
This argument fails. The DOJ’s position
regarding the fraudulent CHM purchase order is, in
fact, consistent with the SEC’s allegations. In the
criminal case, the DOJ argued before the jury that the
CHM purchase order was “made up” on the grounds
that CHM was a fictitious company with no connection
to Tribou, and that Stein arranged for Carter to send
fabricated documents from Japan to create the
impression the CHM sales order was real. Likewise,
the SEC alleged that although Tribou contracted to
purchase a certain number of units from Heart
Tronics in his personal capacity, the purchase order
counter-signed by Heart Tronics and returned to
Tribou identified the customer as CHM, “a fictitious
entity that was not known to [Tribou].” The SEC
further alleged that Stein “orchestrated an elaborate
scheme”—having a fabricated letter sent from
Japan—to create the illusion that the CHM order was

App-13
viable. Therefore, in both the criminal and civil
proceedings the underlying theory was that the CHM
purchase order was fraudulent because CHM was not
a real company and was not connected to Tribou.
Accordingly, the issue of whether the CHM purchase
order was fraudulent was actually litigated and
decided at Stein’s criminal trial.
Stein next argues the district court abused its
discretion in applying issue preclusion because its
application was “unfair” under Parklane Hosiery. In
Parklane Hosiery, the Supreme Court explained that
although trial courts have “broad discretion” to
determine whether to apply offensive issue preclusion,
the doctrine should not be applied when doing so
“would be unfair to a defendant.” 439 U.S. at 331.
Stein contends that because this circuit would have
resolved his Giglio claim differently than the Eleventh
Circuit did, issue preclusion was unfair under the
circumstances.
Under Giglio v. United States, 405 U.S. 150
(1972), a conviction must be set aside if the
prosecution knowingly uses false testimony, or fails to
correct false testimony, and that testimony was
“material.” See Jackson v. Brown, 513 F.3d 1057,
1071–72 (9th Cir. 2008); Hayes v. Brown, 399 F.3d
972, 984 (9th Cir. 2005). False testimony is “material”
if “there is any reasonable likelihood that [it] could
have affected the judgment of the jury.” Dow v. Virga,
729 F.3d 1041, 1048 (9th Cir. 2013) (emphasis
omitted) (quoting United States v. Agurs, 427 U.S. 97,
103 (1976)).
After his conviction, Stein argued on appeal
that the DOJ violated Giglio, partly because it

App-14
knowingly relied on false testimony by Tracey Jones
(the assistant to the then-Heart Tronics CEO) and
Woodbury. The Eleventh Circuit rejected this
argument, concluding that because Stein was at the
time of the testimony in possession of the evidence
needed to demonstrate the alleged falsity of the
testimony, there could be no Giglio violation. Stein,
846 F.3d at 1150. Stein argues that the Eleventh
Circuit’s resolution of his Giglio claim is at odds with
this circuit’s rule that “the government’s duty to
correct perjury by its witnesses is not discharged
merely because defense counsel knows, and the jury
may figure out, that the testimony is false.” United
States v. LaPage, 231 F.3d 488, 492 (9th Cir. 2000). On
the basis of this purported split in circuit court
authority, Stein contends that our court would have
concluded that the DOJ’s failure to correct the
testimony at issue entitled him to a new trial.
Assuming Stein is correct that the Eleventh
Circuit treats Giglio claims differently than we do—
which we need not determine—the supposed circuit
split does not help him here. This is because the
testimony Stein alleges was false is not “material,” a
concept defined consistently across circuits. Compare
Reis-Campos v. Biter, 832 F.3d 968, 976 (9th Cir.
2016), with Guzman v. Sec’y, Dep’t of Corr., 663 F.3d
1336, 1348 (11th Cir. 2011). Stein contends that
because Jones and Woodbury received an October 24,
2007 email with a copy of a $50,000 check from Tribou
attached, Jones testified falsely when she stated that
she “never received any backup” on the purchase
orders, and Woodbury testified falsely when he said he
“got all [his] information from . . . Stein” in preparing
the SEC filings. But in light of the evidence that CHM

App-15
did not exist, that there was no connection between
CHM and Tribou, and that Stein engaged in an
extensive effort to fabricate supporting documentation
for the CHM purchase order, there is no “reasonable
likelihood” that Jones and Woodbury’s allegedly false
testimony “could have affected the judgment of the
jury.” Dow, 729 F.3d at 1048. The case against Stein
was overwhelming, and the prosecution’s correction of
the allegedly false testimony would not have cast
meaningful doubt on Stein’s guilt.
Stein also argues the district court’s application
of issue preclusion was “unfair” because the SEC
action affords him “procedural opportunities
unavailable in the first action that could readily cause
a different result.” Parklane Hosiery, 439 U.S. at 331.
Specifically, Stein contends that the SEC action
presents him with his “first opportunity” to review
nearly 200 million documents contained in an SEC
database. Stein asserts that reviewing these
documents will allow him to determine whether DOJ
prosecutors spoke to an individual named “Yossi
Keret,” who was listed in a public SEC filing as CFO
of an Israeli company, before telling the jury that
Yossi Keret was a fabricated name.
Stein’s argument is baseless. The record
indicates that Stein did, in fact, have access to the 200
million-document database during his criminal trial.
At a pre-trial hearing before the district judge on April
3, 2013, Stein indicated he was working his way
through the documents to determine which documents
might be relevant for him to use at trial. Transcript of
Hearing Proceeding at 38, United States v. Stein, No.
11-cr-80205-KAM, ECF No. 146 (Stein stating to trial

App-16
judge: “That database, which I’ve given the Court the
address to, is – has 200 million documents. Obviously,
all of those documents are not relevant. . . . However,
some of the documents as I go through them are
relevant.”); see also id. at 43–44. Therefore, the SEC
action does not mark Stein’s “first opportunity” to
review the database in question; Stein, in fact, was
reviewing the database in preparation for his criminal
trial.
Moreover, even if Stein did not have access to
the database until after his trial, reviewing the
database was not an opportunity “that could readily
cause a different result.” Parklane Hosiery, 439 U.S.
at 331. The individual that prosecutors argued did not
exist was “Yossie” (with an “e”) Keret, not “Yossi”
Keret. “Yossie” Keret, argued the DOJ, was affiliated
with a phony company called “IT Healthcare,” while
“Yossi” Keret was in 2004 apparently the CFO of a real
company called Pluristem Life Systems, Inc.
Therefore, confirmation that the SEC did, or did not,
talk to “Yossi Keret” of Pluristem Life Systems would
not likely undermine the DOJ’s argument that “Yossie
Keret” of “IT Healthcare” was fabricated to make
fraudulent purchase orders appear legitimate.
The district court’s
preclusion was not unfair.

application

of

issue

VI.
We turn now to Stein’s claim that the district
court erred in denying his request to continue the
summary judgment motion to allow for additional
discovery pursuant to Federal Rule of Civil Procedure
56(d). “A district court’s refusal to continue a hearing
on summary judgment pending further discovery is

App-17
reviewed for an abuse of discretion.” Swoger v. Rare
Coin Wholesalers, 803 F.3d 1045, 1047 (9th Cir. 2015).
A party requesting a continuance pursuant to
Rule 56(d) must identify by affidavit “the specific facts
that further discovery would reveal, and explain why
those facts would preclude summary judgment.”
Tatum v. City & County of San Francisco, 441 F.3d
1090, 1100 (9th Cir. 2006). The facts sought must be
“essential” to the party’s opposition to summary
judgment, Fed. R. Civ. P. 56(d), and it must be “likely”
that those facts will be discovered during further
discovery, Margolis v. Ryan, 140 F.3d 850, 854 (9th
Cir. 1998).
In his declaration in opposition to the SEC’s
motion for summary judgment, Stein stated that
additional discovery would allow him to confirm or
deny the existence of Yossi Keret and other allegedly
made up individuals. Stein asserted that if he could
find Keret, and others, he could ask them questions
about their involvement in the fraudulent purchase
orders.
Stein did not satisfy Rule 56(d). For one thing,
he failed to identify with specificity facts “likely to be
discovered” that would justify additional discovery.
Margolis, 140 F.3d at 854. Rather, the evidence Stein
sought was “the object of mere speculation,” which is
insufficient to satisfy the rule. Ohno v. Yasuma, 723
F.3d 984, 1013 n.29 (9th Cir. 2013); see also Margolis,
140 F.3d at 854 (affirming district court’s denial of
Rule 56(d) motion where assertions regarding the
evidence that would result from additional discovery
were “based on nothing more than wild speculation”).
Furthermore, Stein did not explain how additional

App-18
facts would preclude summary judgment. Stein stated
in his declaration that he “cannot possibly oppose the
Motion for Summary Judgment in an effective manner
without complete and truthful answers to all
outstanding discovery.” But this conclusory assertion
is not enough. Stein did not, for example, point out
how particular evidence not yet discovered was
“essential” to his argument that issue preclusion was
inapplicable or unfair. Accordingly, the district court
did not abuse its discretion in denying Stein’s request
for a continuance pending further discovery.
VII.
Finally, Stein contends the district court erred
in denying his motion for summary adjudication with
respect to Paragraph 77 of the SEC’s complaint.
Paragraph 77 alleges in relevant part: “Stein falsely
told Rauch [a stock promoter] that Heart Tronics
would imminently announce up to $100 million in
sales and that the Company’s stock price was
artificially depressed by naked short sellers.” Stein
argues he was entitled to summary adjudication on
this allegation because he presented evidence that the
SEC confirmed naked short selling of Heart Tronics
stock, which means he could not have lied about the
short selling.
The district court did not err. First, Stein’s
“evidence” that the SEC confirmed naked short selling
of Heart Tronics stock was a broken link to an SEC
web page. Like the district court, we could not access
the link, nor otherwise confirm its contents. Absent
any evidence negating the SEC’s allegation, or a
demonstration by Stein that the SEC lacks sufficient
evidence to carry its burden, Stein has not

App-19
demonstrated the absence of a genuine dispute of
material fact. Nissan Fire & Marine Ins. Co., Ltd. v.
Fritz Cos., Inc., 210 F.3d 1099, 1102 (9th Cir. 2000).
Therefore, the district court did not err in denying
Stein’s motion for summary adjudication on this
allegation. Id. at 1102–03 (“If a moving party fails to
carry its initial burden of production, the nonmoving
party has no obligation to produce anything, even if
the nonmoving party would have the ultimate burden
of persuasion at trial.”).
Second, even if Stein produced evidence of
naked short selling of Heart Tronics stock, such
evidence would not demonstrate the absence of a
genuine dispute as to the truth of the SEC’s allegation
in Paragraph 77. This is because the falsity of the
statement alleged by the SEC stemmed from both
Stein’s assertions of naked short selling and his
representation that Heart Tronics “would imminently
announce up to $100 million in sales.” A reasonable
jury presented with evidence of naked short selling of
Heart Tronics stock could still decide that Stein’s
statement was materially false based on Stein’s false
assertion that Heart Tronics’ would imminently
announce up to $100 million in sales. Accordingly, the
district court did not err in denying Stein’s motion for
summary adjudication. See S. Cal. Darts Ass’n v.
Zaffina, 762 F.3d 921, 925 (9th Cir. 2014) (“A dispute
is ‘genuine’ if ‘a reasonable jury could return a verdict
for the nonmoving party.’” (quoting Anderson v.
Liberty Lobby, Inc., 477 U.S. 242, 248 (1986))).
VIII.
Stein’s
criminal
conviction
conclusively
established all of the facts the SEC was required to

App-20
prove with respect to the specified securities fraud
claims. Accordingly, we AFFIRM the district court’s
summary judgment. All pending motions are denied
as moot.

App-21
Appendix B
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________
No. 15-55506
D.C. No. 8:11-cv-01962-JVS-AN
Central District of California, Santa Ana
________________
SECURITIES AND EXCHANGE COMMISSION,
Plaintiff-Appellee,
v.
MITCHELL J. STEIN.
Defendant-Appellant.
________________

(Filed: Feb. 21, 2019)
________________
ORDER
Before: WALLACE, BERZON, and CALLAHAN,
Circuit Judges.
Stein’s petition for panel rehearing is DENIED.
The full court has been advised of the petition for
rehearing en banc and no judge of the court has
requested a vote on en banc rehearing. Stein’s petition
for rehearing en banc is therefore DENIED.

App-22
Appendix C
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________
No. 15-55506
D.C. No. 8:11-cv-01962-JVS-AN
Central District of California, Santa Ana
________________
SECURITIES AND EXCHANGE COMMISSION,
Plaintiff-Appellee,
v.
MITCHELL J. STEIN.
Defendant-Appellant.
________________

Filed: Jan. 4, 2019
________________
ORDER
Before: WALLACE, BERZON, and CALLAHAN,
Circuit Judges.
Plaintiff-Appellee is directed to file a response
to Defendant-Appellant’s petition for panel rehearing
or rehearing en banc. The response shall be filed
within 21 days from the filing of this order and shall
comply with Federal Rule of Appellate Procedure 32
and Ninth Circuit Rule 40-1.

App-23
Appendix D
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
________________
Case No. SACV11-1962-JVS(ANx)
________________
SECURITIES AND EXCHANGE COMMISSION,
Plaintiff,
v.
HEART TRONICS, INC., MITCHELL JAY STEIN,
WILLIE JAMES GAULT, J. ROWLAND PERKINS,
II, MARTIN BERT CARTER, MARK CROSBY
NEVDAHL, and RYAN ALLAN RAUCH,
Defendants,
TRACEY HAMPTON-STEIN, ARC FINANCE
GROUP, LLC, ARC BLIND TRUST, THS BLIND
TRUST, JAYMI BLIND TRUST, OAK TREE
INVESTMENTS BLIND TRUST, WBT
INVESTMENTS BLIND TRUST, CATCH 83
GENERAL PARTNERSHIP, and FIVE
INVESTMENTS PARTNERSHIP,
Relief Defendants.
________________
(Filed: Mar. 3, 2015)
________________

App-24
FINAL JUDGMENT AGAINST DEFENDANT
STEIN IMPOSING PERMANENT
INJUNCTIONS, PERMANENT OFFICER AND
DIRECTOR BAR, PERMANENT PENNY STOCK
BAR, DISGORGEMENT WITH PREJUDGMENT
INTEREST, AND A CIVIL PENALTY
Consistent with the Court’s Order Granting in
Part and Denying in Part of Plaintiff’s Motion for
Summary Judgment Against Defendant Mitchell J.
Stein as to Claims One, Two, Three, Five, Seven, Eight
and Nine (Docket No. 255) pursuant to Fed. R. Civ. P.
56, and the Plaintiff’s request for leave to voluntarily
dismiss with prejudice all other claims of the
Complaint against this Defendant:
I.
IT IS HEREBY ORDERED, ADJUDGED, AND
DECREED that Defendant Stein and Defendant’s
agents, servants, employees, attorneys, and all
persons in active concert or participation with them
who receive actual notice of this Judgment by personal
service or otherwise are permanently restrained and
enjoined from violating, directly or indirectly, Section
10(b) of the Securities Exchange Act of 1934 (the
“Exchange Act”) [15 U.S.C. § 78j(b)] and Rule 10b-5
promulgated thereunder [17 C.F.R. § 240.10b-5], by
using any means or instrumentality of interstate
commerce, or of the mails, or of any facility of any
national securities exchange, in connection with the
purchase or sale of any security:
(a) to employ any device, scheme, or artifice to
defraud;

App-25
(b) to make any untrue statement of a material
fact or to omit to state a material fact necessary
in order to make the statements made, in the
light of the circumstances under which they
were made, not misleading; or
(c) to engage in any act, practice, or course of
business which operates or
would operate as a fraud or deceit upon any
person.
II.
IT IS FURTHER ORDERED, ADJUDGED,
AND DECREED that Defendant Stein and
Defendant’s agents, servants, employees, attorneys,
and all persons in active concert or participation with
them who receive actual notice of this Judgment by
personal service or otherwise are permanently
restrained and enjoined from violating, directly or
indirectly, Section 17(a) of the Securities Act of 1933
(the “Securities Act”) [15 U.S.C. § 77q(a)] in the offer
or sale of any security by the use of any means or
instruments of transportation or communication in
interstate commerce or by use of the mails:
(a) to employ any device, scheme, or artifice to
defraud;
(b) to obtain money or property by means of any
untrue statement of a material fact or any
omission of a material fact necessary in order to
make the statements made, in light of the
circumstances under which they were made,
not misleading; or

App-26
(c) to engage in any transaction, practice, or
course of business which operates or would
operate as a fraud or deceit upon the purchaser.
III.
IT IS FURTHER ORDERED, ADJUDGED,
AND DECREED THAT Defendant Stein and
Defendant’s agents, servants, employees, attorneys,
and all persons in active concert or participation with
them who receive actual notice of this Judgment by
personal service or otherwise are permanently
restrained and enjoined from violating, directly or
indirectly, Section 13(b)(5) of the Exchange Act [15
U.S.C. § 78m(b)(5)] by knowingly circumventing or
failing to implement a system of internal accounting
controls or knowingly falsifying any book, record, or
account described in Section 13(b)(2) of the Exchange
Act [15 U.S.C. §§ 78m(b)(2)].
IV.
IT IS FURTHER ORDERED, ADJUDGED,
AND DECREED that Defendant Stein and
Defendants’ agents, servants, employees, attorneys,
and all persons in active concert or participation with
them who receive actual notice of this Judgment by
personal service or otherwise are permanently
restrained and enjoined from violating, directly or
indirectly, Rule 13b2-1 of the Exchange Act [17 C.F.R.
§ 240.13b2-1] by falsifying, or causing to be falsified,
any book, record, or account described in Section
13(b)(2)(A) of the Exchange Act [15 U.S.C §
78m(b)(2)(A)].

App-27
V.
IT IS FURTHER ORDERED, ADJUDGED,
AND DECREED that Defendant Stein and
Defendant’s agents, servants, employees, attorneys,
and all persons in active concert or participation with
them who receive actual notice of this Judgment by
personal service or otherwise are permanently
restrained and enjoined from aiding and abetting any
violation of Sections 13(a) of the Exchange Act [15
U.S.C. § 78m(a)] and Rules 12b-20, 13a-1and 13a-13
of the Exchange Act [17 C.F.R. §§ 240.12b-20, 240.13a1and 240.13a-13], including by knowingly providing
substantial assistance to an issuer who files or causes
to be filed with the Commission any periodic or
current report pursuant to Section 13(a) and the rules
and regulations promulgated thereunder, which
contains any untrue statement of a material fact, or
which omits to state a material fact necessary in order
to make statements made, in light of the
circumstances under which they were made, not
misleading, or which fails to comply in any material
respect with the requirements of Section 13(a) of the
Exchange Act and the rules and regulations
thereunder.
VI.
IT IS FURTHER ORDERED, ADJUDGED
AND DECREED that Defendant Stein and
Defendant’s agents, servants, employees and
attorneys-infact, and all persons in active concert or
participation with any of them, who receive actual
notice of this Final Judgment, by personal service or
otherwise, and each of them, are permanently
enjoined and restrained from aiding and abetting any

App-28
violation of Section 13(b)(2)(A) of the Exchange Act [15
U.S.C. § 78m(b)(2)(A)], by knowingly providing
substantial assistance to any issuer which has a class
of securities registered pursuant to Section 12 of the
Exchange Act [15 U.S.C. § 78l], or Section 15(d) of the
Exchange Act [15 U.S.C. § 78o], in failing to make or
keep books, records or accounts, which, in reasonable
detail, accurately and fairly reflect the transactions
and dispositions of the assets of the issuer.
VII.
IT IS FURTHER ORDERED, ADJUDGED
AND DECREED that Defendant Stein and
Defendant’s agents, servants, employees and
attorneys-infact, and all persons in active concert or
participation with any of them, who receive actual
notice of this Final Judgment, by personal service or
otherwise, and each of them, are permanently
enjoined and restrained from aiding and abetting any
violation of Section 13(b)(2)(B) of the Exchange Act [15
U.S.C. § 78m(b)(2)(B)], by knowingly providing
substantial assistance to any issuer which has a class
of securities registered pursuant to Section 12 of the
Exchange Act [15 U.S.C. § 78l], or Section 15(d) of the
Exchange Act [15 U.S.C. § 78o], in failing to devise and
maintain a system of internal accounting controls
sufficient to provide reasonable assurance that
transactions are recorded as necessary to permit
preparation of financial statements in conformity with
generally accepted accounting principles or other
applicable criteria, and to maintain accountability for
assets.

App-29
VIII.
IT IS FURTHER ORDERED, ADJUDGED,
AND DECREED that, pursuant to Section 21(d)(2) of
the Exchange Act [15 U.S.C. § 78u(d)(2)] and Section
20(e) of the Securities Act [15 U.S.C. § 77t(e)],
Defendant Stein is permanently barred from: (i) acting
as an officer or director of any issuer that has a class
of securities registered pursuant to Section 12 of the
Exchange Act [15 U.S.C. § 78l] or that is required to
file reports pursuant to Section 15(d) of the Exchange
Act [15 U.S.C. § 78o(d)]; and (ii) from participating in
an offering of penny stock, including engaging in
activities with a broker, dealer, or issuer for purposes
of issuing, trading, or inducing or attempting to induce
the purchase or sale of any penny stock. A penny stock
is any equity security that has a price of less than five
dollars, except as provided in Rule 3a51-1 under the
Exchange Act [17 C.F.R. 240.3a51-1].
IX.
IT IS FURTHER ORDERED, ADJUDGED,
AND DECREED that Defendant Stein is liable for
disgorgement of $5,378,581.61, representing profits
gained as a result of the conduct alleged in the
Complaint, together with prejudgment interest
thereon in the amount of $697,833.91; and that he is
further liable for a civil penalty in the amount of
$5,378,581.61, pursuant to Section 20 of the Securities
Act [15 U.S.C. § 77t(d)(2)] and Section 21 of the
Exchange Act[15 U.S.C. § 78u(d)(3)]. Defendant shall
satisfy this obligation by paying $11,454,997.13 to the
Securities and Exchange Commission within 14 days
after entry of this Judgment.

App-30
Defendant
may
transmit
payment
electronically to the Commission, which will provide
detailed ACH transfer/Fedwire instructions upon
request. Payment may also be made directly from a
bank account via Pay.gov through the SEC website at
http://www.sec.gov/about/offices/ofm.htm. Defendant
may also pay by certified check, bank cashier’s check,
or United States postal money order payable to the
Securities and Exchange Commission, which shall be
delivered or mailed to:
Enterprise Services Center
Accounts Receivable Branch
6500 South MacArthur Boulevard
Oklahoma City, OK 73169
and shall be accompanied by a letter identifying the
case title, civil action number, and name of this Court;
Mitchell J. Stein as a defendant in this action; and
specifying that payment is made pursuant to this
Judgment.
Defendant shall simultaneously transmit
photocopies of evidence of payment and case
identifying information to the Commission’s counsel
in this action. By making this payment, Defendant
relinquishes all legal and equitable right, title, and
interest in such funds and no part of the funds shall
be returned to Defendant. The Commission shall send
the funds paid pursuant to this Judgment to the
United States Treasury. Defendant shall pay postjudgment interest on any delinquent amounts
pursuant to 28 USC § 1961.
X.
IT IS FURTHER ORDERED, ADJUDGED,
AND DECREED that this Court shall retain

App-31
jurisdiction of this matter for the purposes of enforcing
the terms of this Judgment and all order and decrees
which may be entered herein and to entertain any
suitable application or motion for additional relief
within the jurisdiction of this Court.
XI.
IT IS FURTHER ORDERED, ADJUDGED,
AND DECREED that, there being no just reason for
delay, pursuant to Rule 54(b) of the Federal Rules of
Civil Procedure, the Clerk of the Court is ordered to
enter this Judgment forthwith and without further
notice. Any remaining claims against the Defendant
are dismissed with prejudice pursuant to Rule 42(a)(2)
of the Federal Rules of Civil Procedure.
Dated: March 03, 2015 [handwritten: signature]
HONORABLE JAMES V. SELNA
UNITED STATES DISTRICT JUDGE

App-32
Appendix E
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
________________
Case No. SACV11-1962-JVS(ANx)
The Honorable James V. Selna
________________
SECURITIES AND EXCHANGE COMMISSION,
Plaintiff,
v.
HEART TRONICS, INC., et al.,
Defendants.
________________
(Filed: Feb. 18, 2015)
________________
Civil Minutes
Deputy Clerk: Karla J. Tunis
Court Reporter: Not Present
Attorneys Present for Plaintiffs: Not Present
Attorneys Present for Defendants: Not Present
Proceedings: Order Granting in Part and Denying
in Part Plaintiff's MOTION for Summary Judgment
Against Defendant Stein as to Claims One, Two,
Three, Five, Seven, Eight, and Nine [175] and
Denying Defendant Stein’s Motion for Summary
Adjudication [221]

App-33
Plaintiff Securities and Exchange Commission
(“SEC”) moves for summary judgment against
Defendant Mitchell J. Stein (“Stein”) as to the first,
second, third, fifth, seventh, eighth, and ninth claims
for relief. (Docket No. 175.) Stein opposes (Docket No.
220) and the SEC has replied. (Docket No. 221.)
Stein also moves the court for summary
adjudication with respect to Paragraph 77 of the SEC’s
Complaint. (Docket No. 186) The SEC addresses and
opposes this motion in its reply to Stein’s opposition to
its motion for summary judgment. (Docket No. 221.)
For the following reasons, the Court GRANTS
IN PART and DENIES IN PART the SEC’s motion for
summary judgment. Stein’s motion is DENIED.
I.

BACKGROUND

The facts of this case are familiar to both parties
and the Court, so the Court will provide a brief
overview of those facts relevant to Stein and the
present motions. Stein is the purported outside
counsel of co-defendant Heart Tronics, Inc. (Compl. ¶¶
1, 17.) Between December 2005 to December 2008,
Stein allegedly orchestrated a series of frauds
designed to manipulate the price of Heart Tronics
stock in order to profit from the sale of its securities to
investors. (Id. ¶¶ 33.) In furtherance of this scheme,
Stein allegedly submitted false and misleading filings
to the SEC, concealed his ownership of Heart Tronics
stock through the use of brokerage accounts and blind
trusts over which he and false and misleading press
releases in order to inflate the price of stock. (See id.
¶¶ 4, 6, 40-50, 52-62, 79-82, 85, 87, 93, 95-103.)

App-34
Based on the foregoing, the SEC filed this civil
action against Stein and other defendants on
December 11, 2011, asserting claims against Stein for
violations of federal securities laws. (Docket No. 1).
On December 13, 2011, a federal grand jury in the
Southern District of Florida returned a fourteen-count
indictment charging Stein with crimes based on the
same conduct alleged in the Complaint. (See SEC’s
Mot. Summ. J. 3; Eisner Decl., Ex. 1.) This Court
stayed discovery in this action on April 4, 2012,
pending resolution of the parallel criminal matter,
United States v. Stein. (See Docket Nos. 36, 37.)
On May 20, 2013, the jury in the criminal matter
returned a guilty verdict against Stein on all fourteen
counts in the Indictment, establishing that Stein
committed one count of conspiracy to commit mail
fraud and wire fraud (18 U.S.C. § 1349), three counts
of mail fraud (18 U.S.C. § 1341), three counts of wire
fraud (18 U.S.C. § 1343), three counts of securities
fraud (18 U.S.C. § 1348), three counts of money
laundering (18 U.S.C. § 1957), and one count of
conspiracy to obstruct justice (18 U.S.C. § 371). (SEC’s
Statement of Uncontroverted Facts (“SUF”) 15-17.) On
December 5, 2014, the court in the criminal matter
entered judgment against Stein and sentenced him to
seventeen years in custody. (Id. at 16-17.)
The SEC now moves for summary judgment in
this action based on the collateral estoppel effect of
Stein’s criminal conviction. (SEC’s Mot. Summ. J. 1.)
The SEC requests permanent injunctive relief,
disgorgement of ill-gotten gains, and civil penalties
against Stein. (Id. at 2.)

App-35
II.

LEGAL STANDARD

Summary judgment is appropriate where the
record, read in the light most favorable to the
nonmovant, indicates “that there is no genuine
dispute as to any material fact and the movant is
entitled to judgment as a matter of law.” Fed. R. Civ.
P. 56(a); see also Celotex Corp. v. Catrett, 477 U.S. 317,
322-23 (1986). Summary adjudication, or partial
summary judgment “upon all or any part of [a] claim,”
is appropriate where there is no genuine dispute as to
any material fact regarding that portion of the claim.
Fed. R. Civ. P. 56(a); see also Lies v. Farrell Lines, Inc.,
641 F.2d 765, 769 n.3 (9th Cir. 1981) (“Rule 56
authorizes a summary adjudication that will often fall
short of a final determination, even of a single claim .
. . .”) (internal quotation marks omitted).
Material facts are those necessary to the proof or
defense of a claim, and are determined by referring to
substantive law. Anderson v. Liberty Lobby, Inc., 477
U.S. 242, 248 (1986). In deciding a motion for
summary judgment, “[t]he evidence of the non-movant
is to be believed, and all justifiable inferences are to
be drawn in his favor.” Anderson, 477 U.S. at 255. 1
The moving party has the initial burden of
establishing the absence of a material fact for trial.
Anderson, 477 U.S. at 256. “If a party fails to properly
“In determining any motion for summary judgment or partial
summary judgment, the Court may assume that the material
facts as claimed and adequately supported by the moving party
are admitted to exist without controversy except to the extent
that such material facts are (a) included in the ‘Statement of
Genuine Disputes’ and (b) controverted by declaration or other
written evidence filed in opposition to the motion.” L.R. 56-3.
1

App-36
support an assertion of fact or fails to properly address
another party’s assertion of fact . . . , the court may . .
. consider the fact undisputed.” Fed. R. Civ. P. 56(e)(2).
Furthermore, “Rule 56[(a)] 2 mandates the entry of
summary judgment . . . against a party who fails to
make a showing sufficient to establish the existence of
an element essential to that party’s case, and on which
that party will bear the burden of proof at trial.”
Celotex Corp., 477 U.S. at 322. Therefore, if the
nonmovant does not make a sufficient showing to
establish the elements of its claims, the Court must
grant the motion.
III. DISCUSSION
A. Collateral Estoppel
Collateral estoppel is appropriate when (1) “the
issue at stake is identical to an issue raised in the
prior litigation;” (2) “the issue was actually litigated in
the prior litigation;” and (3) “the determination of the
issue in the prior litigation must have been a critical
and necessary part of the judgment in the earlier
action.” Littlejohn v. United States, 321 F.3d 915, 923
(9th Cir. 2003). In the Ninth Circuit, the following
criteria are used to analyze the collateral effect of a
prior criminal conviction:
(1) the prior conviction must have been for a
serious offense so that the defendant was
motivated to fully litigate the charges;
2 Rule 56 was amended in 2010. Subdivision (a), as amended,
“carries forward the summary-judgment standard expressed in
former subdivision (c), changing only one word — genuine ‘issue’
becomes genuine ‘dispute.’” Fed. R. Civ. P. 56, Notes of Advisory
Committee on 2010 amendments.

App-37
(2) there must have been a full and fair trial to
prevent
convictions of doubtful validity from being used;
(3) the issue on which the prior conviction is
offered must of necessity have been decided at
the criminal trial; and (4) the party against
whom collateral estoppel is asserted was a
party or in privity with a party to the prior trial.
Ayers v. City of Richmond, 895 F.2d 1267, 1271 (9th
Cir. 1990).
Stein argues that collateral estoppel is not
appropriate because “the specific issues in this case
were not decided in the criminal case.” 3 (Stein’s First
Am. Opp’n 1). While Stein correctly notes that only the
identical issues necessarily decided in the criminal
case may be given collateral effect, when a jury
returns a general verdict a court may determine what
was necessarily decided by the criminal judgment
“upon an examination of the record, including the
pleadings, the evidence submitted, [the jury
instructions], and any opinions of the court.” See
Emich Motors Corp. v. Gen. Motors Corp., 340 U.S.
Stein does not appear to dispute that the first, second, and
fourth factors necessary to give preclusive effect to a criminal
judgment are satisfied in this case. (See Stein’s First Am. Opp’n
1.) The prior conviction was clearly for serious offenses
warranting heavy penalties (Stein was ultimately sentenced to
17 years in custody based on the conviction), so Stein had a strong
incentive to fully litigate the charges. There is nothing in the
record to indicate that Stein received anything other than a fair
and full trial or that the validity of the conviction is doubtful.
Finally, Stein was the sole defendant in the prior criminal
proceeding and is the party against whom the SEC now asserts
collateral estoppel.
3

App-38
558, 569 (1951). Issues “essential to the verdict must
be regarded as having been determined by the
judgment.” Id. The Court will discuss the identity of
issues necessarily decided in its discussion of the
SEC’s claims, infra Parts B and C.
Stein also argues that the application of
collateral estoppel would be inequitable because the
Government in the criminal proceeding and the SEC
in this proceeding maintain distinguishable theories
on one aspect of the case: the Government argued that
the names of individuals on or in connection with
allegedly fraudulent purchase orders were invented by
Stein, while here the SEC implicitly acknowledges
that at least two of the people may exist but argues
that they were not the actual signatories on
documents related to the purchase orders in question.
(Stein First Am. Opp’n 2-3.) This is a difference that is
immaterial to the jury’s ultimate findings of material
facts supporting their conviction of Stein for
securities, mail, and wire fraud. The jury need not
have found that the individuals in question did or did
not exist. Moreover, given that Stein’s position at trial
was that the signatures were genuine, Stein had a full
and fair opportunity to rebut the Government’s
evidence on this point.
Stein particularly takes issue with difference
between the SEC’s and the Government’s theories
regarding the Cardiac Hospital Management
purchase order (see Stein First Am. Opp’n 11), which
formed the basis of his conviction for one count of wire
fraud. (See Eisner Decl, Ex. 1, Ex. 3 at Gov’t Ex. 129.)
For the reasons discussed supra, the difference in the
SEC’s and Government’s theories regarding the

App-39
existence of the order’s signatory does not affect the
jury’s ultimate finding that there was fraud in
connection with this order, and it does not affect
whether the issue was actually litigated in the prior
case. Furthermore, even if Stein were correct that the
SEC’s different position destroys the identity of issues
related to this particular count of fraud, the Court’s
analysis would be unaffected because Stein was
convicted of two additional counts of fraud based on
two other purchase orders. Stein does not argue that
the SEC and the Government have different positions
with respect to those orders.
Stein also argues that collateral estoppel is
inappropriate because the SEC’s Complaint alleges
additional wrongful conduct that was not discussed or
decided at the criminal trial and is not discussed in
their motion for summary judgment. (Stein’s First
Am. Opp’n 7.) However, the relevant inquiry is not
whether the Complaint and the Indictment are
identical in all respects; rather, the Court considers
whether the issues sought to be precluded are
identical to those previously litigated. The presence of
allegations in the Complaint that were not previously
litigated cannot defeat the summary judgment motion
when the SEC is arguing that at a minimum the issues
decided at the criminal proceeding establish Stein’s
civil liability. Obviously, if the issue here was not
address in the criminal case, that has no bearing on
the issue.
Finally, Stein argued at the hearing that the
Court should defer ruling on the SEC’s motion for
summary judgment pursuant to Federal Rule of Civil
Procedure 56(d) because Stein has pending discovery

App-40
motions. The Court declines to defer its ruling because
Stein has now shown how discovery would change the
result of collateral estoppel.
B. Stein’s Principal Violations
I. First and Second Claims: Securities
Fraud
Section 10(b) of the Exchange Act makes it
unlawful “to use or employ any stoploss order in
connection with the purchase or sale, of any security
other than a government security, in contravention of
such rules and regulations as the [SEC] may prescribe
as necessary or appropriate in the public interest or
for the protection of investors.” 15 U.S.C. § 78j(a)(1).
Rule 10b-5 makes it unlawful
(a) To employ any device, scheme, or
artifice to defraud, (b) To make any
untrue statement of a material fact or
to omit to state a material fact
necessary in order to make the
statements made, in the light of the
circumstances under which they were
made, not misleading, or (c) To engage
in any act, practice, or course of
business which operates or would
operate as a fraud or deceit upon any
person, in connection with the
purchase or sale of any security.
17 C.F.R. § 240.10b-5. Section 10(b) and Rule 10b-5
together prohibit “(1) using any deceptive device (2) in
connection with the purchase or sale of securities.”
United States v. O’Hagan, 521 U.S. 642, 651 (1997).
Section 17(a) prohibits the same fraudulent conduct in
the offer or sale of any security. See 15 U.S.C. § 77q(a).

App-41
The antifraud provisions may be violated either
(1) by proof of misrepresentations or omissions of
material fact, or (2) by proof that the defendant
engaged in a scheme to defraud. Affiliated Ute Citizens
v. United States, 406 U.S. 128, 152-53 (1972). Under
either theory, the SEC must also establish that the
defendant’s actions or representations were (1)
material, (2) made with scienter, 4 and (3) in
connection with the purchase or sale of securities. See
Gebhart v. SEC, 595 F.3d 1034, 1040 n.8 (9th Cir.
2010).
Stein’s criminal conviction clearly establishes
his liability for securities fraud in this action. The jury
in the criminal proceedings found that based on
evidence presented at trial, Stein was guilty of three
counts of securities fraud. The district court judge
instructed the jury that to find Stein guilty of
securities fraud, it must find the following facts are
proved beyond a reasonable doubt: (1) Stein
“knowingly executed or attempted to execute a scheme
or artifice to defraud;” (2) Stein “did so with the intent
to defraud . . . the specific intent to deceive or cheat
someone, usually for personal gain or to cause
financial loss to someone else;” and (3) “the scheme to
defraud was in connection with any security of Heart
Tronics, Inc., collectively Signalife, and Signalife had
a class of securities registered under Section 12 of the
Securities Exchange Act of 1934.” (SEC’s SUF ¶ 7.)
The jury also found that Stein was guilty of
three counts of mail fraud. The district court judge
instructed the jury that to find Stein guilty of mail
4 Scienter is not an element of violations of subsections
17(a)(2) or 17(a)(3). Aaron v. SEC, 446 U.S. 680, 697 (1980).

App-42
fraud, it must find that the following facts are proved
beyond a reasonable doubt: (1) Stein “knowingly
devised or participated in a scheme to defraud
someone, or to obtain money or property using false or
fraudulent pretenses, representations or promises;”
(2) “the false or fraudulent pretenses, representations
or promises were about a material fact;” (3) Stein “did
so with an intent to defraud someone;” and (4) Stein
“used a private or commercial interstate carrier by
depositing or causing to be deposited with the carrier
something meant to help carry out the scheme to
defraud.” 5 (SEC’s SUF ¶ 8.) The district court judge
instructed the jury that it must make the first three
findings as well as a finding that Stein “transmitted
or caused to be transmitted by wire some
5

The district court further instructed:
A scheme to defraud includes any plan or course
of action intended to deceive or cheat someone out
of money or property using false or fraudulent
pretenses, representations or promises. A
statement or representation is false or fraudulent
if it is about a material fact, it is made with intent
to defraud, and the speaker either knows it is
untrue or makes it with reckless indifference to
the truth. It may be false or fraudulent if it is
made with the intent to defraud and is a halftruth or effectively conceals a material fact. A
material fact is an important fact that a
reasonable person would use to decide whether to
do or not do something. A fact is material if it has
the capacity or natural tendency to influence a
person’s decision. It does not matter whether the
decision-maker actually relied on the statement
or knew or should have known that the statement
was false.

(SEC’s SUF ¶ 8.)

App-43
communication in interstate commerce to help carry
out the scheme to defraud” in order to find Stein guilty
of wire fraud. (See SEC’s SUF ¶ 9.) The jury convicted
Stein of three counts of wire fraud.
Accordingly, Stein is estopped from challenging
the facts found by the jury in convicting him. Given
that the Complaint describes a scheme identical to the
scheme described in the Indictment and at trial, there
is no dispute of material fact that Stein is guilty of
securities fraud under Section 10(b) of the Exchange
Act, Rule 10b-5 thereunder, and Section 17(a) of the
Securities Act.
ii. Eighth and Ninth Claims: Falsifying
Records
In its eighth and ninth claims for relief, the SEC
alleges that Stein violated Exchange Act Rule 13b2-1
and Exchange Act 13(b)(5). (Compl. ¶¶ 158-163.) Rule
13b2-1 provides that “[n]o person shall directly or
indirectly, falsify or cause to be falsified, any book,
record or account subject to section 13(b)(2)(A) of the .
. . Exchange Act.” 17 C.F.R. § 240.13b2-1. Rule
13(3)(b)(5) provides that “no person shall . . .
knowingly falsify any book, record or account
described in [Section 12(b)(2)(A) of the Exchange Act].”
15 U.S.C. § 78m(b)(5). It is not disputed that at the
relevant time Heart Tronics was a reporting company
subject to Section 13(b)(2)(A) of the Exchange Act,
requiring it to “make and keep books, records, and
accounts, which, in reasonable detail, accurately and
fairly reflect the transactions and dispositions of the
assets of the issuer.” See 15 U.S.C. § 78m(b)(2)(A).
Here, as discussed supra, Stein is estopped from
contesting the issues necessarily determined by the

App-44
jury in his criminal conviction, including that he
committed securities, mail, and wire fraud in
connection with a scheme to artificially inflate the
price of Heart Tronics stock. Given that Stein is
estopped from challenging the foregoing facts, Stein
cannot reasonably dispute that his knowingly
fraudulent activity was included in Heart Tronics’
books, records, and accounts, which caused
falsification of those books, records, and accounts.
Accordingly, summary judgment is appropriate on the
SEC’s eighth and ninth claims for relief.
iii. Fifth Claim: Section 5 Violations
The SEC seeks summary judgment on its fifth
claim for relief that Stein violated Exchange Acts
Sections 5(a) and 5(c). (SEC’s Mot. Summ. J. 15-17.)
Section 5(a) prohibits the direct or indirect sale of
unregistered securities through the mail or interstate
commerce. 15 U.S.C. § 77e(a). Section 5(c) prohibits
the interstate offer for sale of unregistered securities.
15 U.S.C. § 77e(c). Liability pursuant to Section 5
extends to one who has a “significant” role in the
transaction, which includes one who is a “necessary
participant” and a “substantial factor” in the
transaction. S.E.C. v. Phan, 500 F.3d 895, 906 (9th
Cir. 2007).
After a review of the trial record, the Court is
unable to conclude that the jury necessarily decided
that Stein failed to properly register securities given
to contractors as compensation. Although Stein does
not appear to dispute that the securities in question
were unregistered (see Stein’s Statement of Genuine
Issues in Opp’n Mot. Summ J., ¶ 6g), Stein is not
collaterally estopped from challenging the SEC’s

App-45
assertion that he played a significant role in the
transaction. The SEC argues that Stein was
significantly involved in the prior proceeding, with
reference to testimony and evidence developed at trial.
(See SEC’s SUF ¶ 6g.) However, viewing the evidence
in the light most favorable to the nonmoving party, the
Court cannot conclude that the SEC has shown that
no genuine dispute of material fact remains.
Accordingly, summary judgment is not appropriate on
the SEC’s fifth claim.
C. Stein’s Liability as Aider and Abettor
to Heart Tronics’ Principal Violations
The SEC seeks summary judgment on its third
and seventh claims for relief in the Complaint,
specifically alleging that Stein aided and abetted
Heart Tronics’ principal violations of securities laws
(Exchange Act Section 10(b), Rule 10b-5, Securities
Act Section 17(a)) and financial reporting
requirements
(Exchange
Act
Section
13(a),
13(b)(2)(A), 13(b)(2)(B), Rules 12b-20, 13a-1, 13a-11,
and 13a-13). (See Compl. ¶¶ 133-140, 155-157.) To
establish a defendant’s liability for aiding and
abetting violations of these provisions, the SEC must
show that a defendant knowingly provided substantial
assistance to a primary violation of the securities laws
by another. See SEC v. Todd, 642 F.3d 1207, 1225 (9th
Cir. 2011); 15 U.S.C. § 78t(e).
The Court finds that it cannot be disputed that
Stein aided and abetted Heart Tronics’ primary
violations of the securities laws and financial
reporting requirements. Stein was operating as Heart
Tronics’ general counsel during the time of his
fraudulent actions. (SEC’s Mot. Summ. J. 11.)

App-46
Furthermore, it cannot be genuinely disputed that
Heart Tronics had scienter with respect to these
fraudulent transactions, because a corporation’s
scienter is “necessarily derived from its employees.”
Brown v. China Integrated Energy, Inc., 875 F. Supp.
2d 1096, 1120 (C.D. Cal. 2012). Thus, for the purposes
of this motion, Stein cannot dispute that Heart
Tronics committed a primary violation of the
securities laws, because the issues necessarily
determined by the jury in convicting Stein of securities
fraud are identical to the issues necessary to find a
primary violation of the securities laws by Heart
Tronics in this instance.
Similarly, as discussed supra, Stein is estopped
from disputing that his knowingly fraudulent activity
was included in Heart Tronics’ books, records, and
accounts, which necessarily served as the basis of
Heart Tronics’ inaccurate SEC filings. Thus, it cannot
be disputed that Heart Tronics violated the financial
reporting requirements of the Exchange Act and
Rules, as scienter is not an element of a primary
violation of these provisions. See SEC v. McNulty, 137
F.3d 732, 740-41 (2d Cir. 1998). Based on the
foregoing, Stein substantially assisted Heart Tronics
in its primary violation.
Accordingly, summary judgment is appropriate
on the SEC’s third and seventh claims for relief.
D. Permanent Injunction
The SEC seeks an order permanently enjoining
Stein from future violations of the securities laws
pursuant to Section 20(b) of the Securities Act and
Section 21(d) of the Exchange Act. See 15 U.S.C. §
77t(b); 15 U.S.C. § 78u(d); (SEC’s Mot. Summ. J. 17).

App-47
It is within the Court’s discretion to issue an
injunction permanently enjoining a defendant from
future violations of securities laws when the Court
finds a defendant liable for securities violations and
there is a reasonable likelihood that violations may be
repeated. SEC v. Murphy, 626 F.2d 633, 655 (9th Cir.
1980). The court may consider the following factors in
determining whether injunctive relief is appropriate:
[T]he degree of scienter involved; the
isolated or recurrent nature of the
infraction; the defendant’s recognition
of the wrongful nature of his conduct;
the likelihood, because of [the]
defendant’s professional occupation,
that future violations might occur; and
the sincerity of [the defendant’s]
assurances against future violations.
Id. The SEC notes that Stein’s fraudulent conduct was
egregious, intentional, and recurrent. (See SEC’s Mot.
Summ J. 18-20.) Based on this conduct, Stein was
convicted guilty of securities fraud, mail fraud, wire
fraud, money laundering, and obstruction of justice.
(Id. at 19.) The SEC also argues that Stein has not
shown any remorse or acceptance of responsibility for
his actions. (Id. at 20.) The Court concludes that the
SEC adequately supports its request for a permanent
injunction and also notes that Stein has failed to reply
to the SEC’s arguments on this point. (See SEC’s Reply
6.) Consequently, the Court finds a permanent
injunction warranted in this case.
E. Bar of Service as Officer or Director
A court may bar an individual from serving as
an officer or director of a publicly reporting company

App-48
upon sufficient showing that the person committed a
scienter-based fraud violation and his conduct
demonstrates unfitness to serve as an officer or
director of public company. See 15 U.S.C. § 77t(e); 15
U.S.C. § 78u(d)(2). The following factors are relevant
to a determination that an individual should be barred
from serving as an officer or director
(1) the “egregiousness” of the
underlying securities law violation; (2)
the defendant’s “repeat offender”
status; (3) the defendant’s “role” or
position when he engaged in the fraud;
(4) the defendant’s degree of scienter;
(5) the defendant’s economic stake in
the violation; and (6) the likelihood
that misconduct will recur.
S.E.C. v. First Pac. Bancorp, 142 F.3d 1186, 1193 (9th
Cir. 1998). The SEC notes that Stein’s offense was
egregious and “his fraudulent scheme was systematic,
multi-faceted, and long-running.” (SEC’s Mot. Summ.
J. 20.) Stein occupied a central role in the scheme,
served as general outside counsel of Heart Tronics,
and gained over $5 million as a result of his fraudulent
conduct. (Id.) Stein makes no argument in response.
(See SEC’s Reply 6.) Accordingly, the Court concludes
that an order barring Stein from serving as an officer
or director of a publicly reporting company is
warranted in this case.
F. Bar of Trading in Penny Stock
A court is authorized to bar an individual from
trading in “penny stock,” an equity security with a
price of less than $5.00, when it is shown that the
person was participating in an offering of penny stock

App-49
at the time of the alleged misconduct. See 15 U.S.C. §
78u(d)(6)(A); 15 U.S.C. § 77t(g). The court may
consider a conditional, unconditional, temporary, or
permanent
bar considering
the
facts and
circumstances of the case. Id. The court considers
“essentially the same factors that govern the
imposition of an officer or director bar” when imposing
a penny stock bar. SEC v. Abella, 674 F. Supp. 2d
1213, 1223 (W.D. Wash. 2009.)
Here, the SEC notes that Heart Tronics was a
penny stock when Stein sold millions of dollars worth
of Heart Tronics’ stock after issuing false press
statements and SEC filings that artificially inflated
the price of shares in the market. (SEC’s Mot. Summ.
J. 22.) The SEC argues that the egregiousness of
Stein’s conduct justifies a permanent bar on trading
penny stock. (Id.) Again, Stein makes no argument in
response. (See SEC’s Reply 6.) Accordingly ,the Court
finds that an order permanently barring Stein from
trading in penny stock is warranted in this case.
G. Civil Penalties
The SEC requests that the Court impose civil
penalties pursuant to Section 20(d) of the Securities
Act and Section 21(d)(3) of the Exchange Act. See 15
U.S.C. § 77t(d); 15 U.S.C. § 78u(d)(3). “Third tier”
penalties in the gross amount of pecuniary gain are
warranted when a violation “involved fraud, deceit,
manipulation, or deliberate or reckless disregard of a
regulatory requirement” and “such violation directly
or indirectly resulted in substantial losses or created
a significant risk of substantial losses to other
persons.” 15 U.S.C. §77t(d)(2)(C).

App-50
Here, Stein is liable for securities fraud. The
SEC maintains that evidence presented at trial shows
that Stein’s fraudulent scheme directly or indirectly
resulted in substantial losses to investors (Mot.
Summ. J. 23), and Stein does not present any
argument in opposition. (See SEC’s Reply 6.) After a
two day evidentiary hearing in connection with
sentencing, the district court judge found that the
gross amount of pecuniary gain as a result of Stein’s
violations was $5,378,581.61. (Eisner Decl., Exs. 6, 7.)
The Court finds that imposing a civil penalty for this
amount is warranted under the law.
H. Disgorgement
Finally, the SEC seeks an order of
disgorgement of ill-gotten gains from Stein. (SEC’s
Mot. Summ. J. 23.) When a defendant is found liable
for securities violations, he Court has broad equitable
power to order disgorgement of all gains, including
prejudgment interest, flowing from that illegal
activity. See First Pac. Bancorp, 142 F.3d at 1191;
SEC v. Cross Fin. Servs., Inc., 908 F. Supp. 718, 734
(C.D. Cal. 1995).
Here, the SEC requests the Court order Stein to
pay in disgorgement a total of $6,076,415.52, which is
the sum of $5,378,581.61 in illegal gain and
$697,833.91 in interest calculated using the postjudgment interest rate set forth in 28 U.S.C. § 1961.
(SEC’s Mot. Summ. J. 24-25; Eisner Decl., Ex. 8.) Stein
does not reply to the SEC’s arguments on this point.
(See SEC’s Reply 6.) Accordingly, Stein is ordered to
pay in disgorgement $6,076,415.52.

App-51
I. Stein’s Motion for Summary
Adjudication
Stein requests summary adjudication with
respect to Paragraph 77 of the Complaint, which
alleges in relevant part that
Stein falsely told Rauch that Heart
Tronics would imminently announce
up to $100 million in sales and that the
Company’s stock price was artificially
depressed by naked short sellers.
(Compl. ¶ 77.) Stein argues that because the SEC
acknowledged the existence of naked short selling,
Stein could not have lied about it. (See Stein’s Mot.
Summ. Adjudication 1.) As evidence, Stein submits a
broken link to an SEC web page. (Id.) Stein claims, but
the Court is unable to confirm, that the web page
shows that the SEC publicly acknowledged naked
short selling of Heart Tronics stock. (Id.) It is not clear
to the Court that the SEC’s and Stein’s positions are
in tension, as the sentence does not clearly state that
Stein was lying about the artificial depression. In any
event, Stein fails to carry his initial Celotex burden;
Stein’s motion for summary adjudication on this issue
is not supported with evidence and consequently is
denied.
IV.

CONCLUSION

For the foregoing reasons, the SEC’s motion for
summary judgment is GRANTED IN PART with
respect to the first, second, third, and seventh claims
and DENIED IN PART with respect to the fifth claim.
Stein’s motion is DENIED.

App-52
IT IS SO ORDERED.
Initials of Preparer

0
kjt

:

00

App-53
Appendix F
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
________________
CERTIFIED TRANSCRIPT
Case No. SACV11-1962-JVS(ANx)
The Honorable James V. Selna, Judge Presiding
________________
SECURITIES AND EXCHANGE COMMISSION,
Plaintiff,
v.
HEART TRONICS, INC., et al.,
Defendants.
________________
February 17, 2015
________________
REPORTER'S TRANSCRIPT OF
PROCEEDINGS
SANTA
ANA,
CALIFORNIA;
FEBRUARY 17, 2015; 10:35 A.M.

TUESDAY,

THE CLERK: Item No. 3, SACV-11-01962-JVS,
SEC versus Heart Tronics, Inc., et al. Counsel, please
state your appearance for the record.
MR. DONNELLY: Good morning. I'm Ken
Donnelly. I am here for the Securities and Exchange

App-54
Commission, and with me is my colleague, Melissa
Armstrong.
THE COURT: Good morning.
MR. NEWHOUSE: Good morning, Your Honor.
George Newhouse on behalf of defendant Willie Gault.
Although it's not our motion, I thought I would be
present.
THE COURT: Good morning. At Docket 228 -(Court and clerk conferring.)
THE COURT: Well, apparently Mr. Stein is
trying to call in on Ms. Tunis's number. So we are just
going to recess briefly and see if she can't link up with
him and put him on the phone here.
MR. DONNELLY: All right.
(Recess.)
THE CLERK: Item No. 3, SACV-11-01962-JVS,
SEC versus Heart Tronics, Inc., et al. Parties, please
state your appearances for the record.
MR. DONNELLY: Good morning. My name is
Ken Donnelly for the Securities and Exchange
Commission, and with me is my colleague Melissa
Armstrong.
MR. NEWHOUSE: Good morning, Your Honor.
George Newhouse on behalf of Mr. Gault.
MR. STEIN: Good morning, Your Honor.
Mitchell Stein, pro se, appearing by telephone.
THE COURT: Mr. Stein, were you able to
obtain a copy of the tentative ruling?
MR. STEIN: Yes, I was Your Honor.

App-55
THE COURT: Okay, sir, then I think I would
like to begin with you.
MR. STEIN: Thank you, Your Honor. I
appreciate the Court allowing me to argue
telephonically. I have read the tentative carefully, and
I understand and am mindful that the Court has
reviewed the record carefully.
I have a few things I would like to address. The
first will be the one SEC admission at Paragraph 40 of
the Complaint that I believe is fatal to the application
of offensive collateral estoppel, and it's regarding one
of three allegedly false purchase orders.
I will then speak briefly about Rule 56(d) and
about my cross-motions for partial summary
judgment.
Turning to the argument, Your Honor, if the
Court could please pull up Trial Exhibit 64, which is
docket entry 175-6, Exhibit 3 to the Eisner
declaration. Again, it's 175-6, the docket entry.
THE COURT: Is it in your responding papers?
MR. STEIN: I'm sorry. No, Your Honor. It's
attached to the declaration of Mr. Eisner from the
SEC, Docket 175-6. It's a trial exhibit from the
criminal trial, Exhibit 64.
THE COURT: Just a minute, please.
MR. STEIN: Thank you.
THE COURT: Okay, Docket No. 175.
MR. STEIN: Exhibit 64, Docket 175-6, Trial
Exhibit 64 from the criminal trial.
THE COURT: Okay.
MR. STEIN: Thank you, Your Honor.

App-56
Just so we are talking about the same thing, on
the top it should say Purchase Order No. 2003-001.
This is the Cardiac Hospital Management purchase
order, one of the three purchase orders that I was
convicted of fabricating.
In the criminal case, government witnesses and
the prosecution said this purchase order was not
signed by Thomas Tribou and thus not a binding
purchase order, that the $50,000 check was not
delivered under this purchase order.
In this case, Your Honor, at Paragraph 40, the
SEC alleges and admits the opposite, that not only
does the signatory, Thomas Tribou, exist, but that he
signed this document and entered in into this deal.
THE COURT: Sir, let me make sure I have the
right document.
MR. STEIN: Yes, Your Honor.
THE COURT: -6 is part of Exhibit 3 to the
Eisner declaration. It's 255 pages. And I am looking at
Government's Exhibit 68, which is -MR. STEIN: I believe it's 64.
THE COURT: 64, okay.
MR. DONNELLY: Yes, Your Honor. I'm sorry.
THE COURT: Okay.
MR. STEIN: Your Honor, it says 2003-001, the
purchase order at the top.
THE COURT: Okay, I'm with you.
MR. STEIN: Thank you, Your Honor.
In the criminal case, government witnesses and
the prosecution said this was not signed by Thomas

App-57
Tribou and thus not binding, that the $50,000 called
for under it was not delivered.
In this case, Your Honor, the SEC alleges the
exact opposite. They allege at Paragraph 40 of their
Complaint and in their separate statement that this
purchase order was entered into, that Mr. Tribou does
exist, and that he signed this document and entered
into this deal. That's at Paragraphs 40 through 43 of
the Complaint, as well as separate statement 6-C.
I have laid this out very simply on page 11 of
the amended opposition in a simple chart that shows
the difference between the criminal trial, where this
purchase order simply was never entered, and this
case, where it was entered into.
Now, Your Honor, to be fair to the Securities
and Exchange Commission, they do allege that there
was a fraud regarding this purchase order, but the
fraud is completely different. The fraud they allege in
this case is that the purchase order was entered into,
but if you read Paragraphs 40 through 43, that there
was a lie regarding whether the products could be
delivered and a fraud after the purchase order.
Page 7 of the text of the tentative ruling, which
I have reviewed carefully, says that, quote: "Given the
Complaint describes a scheme identical to the scheme
described at trial," meaning the criminal trial. But
respectfully, Your Honor, that's inaccurate. The
criminal trial has this purchase order as never having
been entered into, and this case has the purchase
order as being entered into. It's the opposite.
Littlejohn versus United States, which I know this
Court is well familiar with, requires that the issues be
identical.

App-58
I have been sentenced to 17 years based on
three purchases orders. This is one of the three. And
contrary -- this is not identical. This is completely the
opposite.
The criminal jury needed to know that this
purchase order was signed by Mr. Tribou and that he
delivered $50,000 under it, but the DOJ actually
objected to the check on hearsay grounds. I am not -- I
have reviewed that in my papers. Judge Marra ruled
that the check was excludable because it's hearsay,
but U.S. versus Williams says says checks aren't
hearsay. That's besides the point. The matters are
completely different regarding one of the core
purchase orders.
I would also like to cite Security and Exchange
Commission versus Reyes, Judge Breyer of the
Northern District of California, 2008 Lexis 65895. In
that case, Judge Breyer wrote -- I am paraphrasing -"If there is a doubt that the issue was not litigated in
the earlier case, the identical issue, offensive
collateral estoppel cannot be applied." It is beyond
dispute that of this one purchase order out of the three
the identical issue was not litigated.
I am very mindful of the heavy presumption
against me, and I have been convicted and my life is
essentially over. But, Your Honor, I respectfully
submit we have got to face the reality that the criminal
trial theory that Exhibit 64 was not signed by Thomas
Tribou and he did not deliver a $50,000 check -- that
theory has been admitted in this case by the SEC to
have been false.
Paragraph 40 says it specifically. It says, quote:
"On approximately September 14, 2007" -- and I ask

App-59
the Court to note that that is the date on the purchase
order -- continuing: "Heart Tronics contracted to sell
$2 million of its Fidelity 100 product to an individual
located in Portland, Oregon, the customer, who had a
prior relationship with Lowell Harmison, then CEO of
Heart Tronics. More specifically, the customer signed
an order to purchase 180 units of the Fidelity 100 for
$1.98 million. Stein negotiated and drafted the
purchase order with the customer, and it was signed
on behalf of Heart Tronics by Harmison. The customer
sent Heart Tronics a personal check for $50,000 as a
deposit for the units."
The criminal jury, Your Honor, was given none
of these facts. They were given the opposite facts. Once
it is understood that one of three purchase orders said
to be fictitious at the criminal trial is admitted by the
SEC not to be fictitious, I argue, Your Honor, the
entire case here is thrown into a different light,
because that's what is required under the equitable
prong of offensive collateral estoppel. That's been
heavily briefed, I see that the Court has reviewed it
carefully. There is no need to go into the equitable
prong.
If this Court is -- nevertheless -- and I pointed
out it's one of the key differences, but here are many
more that have been pointed out. The issues are not
identical because of this. But if this Court is inclined
to say the issues are similar enough or whatever the
standard is, then, Your Honor, I think it underscores
the importance of the outstanding discovery, and I
believe that the discovery should be ruled upon prior
to this motion being granted, not vice-versa.

App-60
Once we know that Thomas Tribou not only
existed -- and I think the Court has correctly in the
tentative said just the fact that people exist and they
said at trial they didn't exist may not be enough.
Presuming that that is the standard, that should be
the ruling, and that is this Court's ruling. That wasn't
what happened.
In this case, it's not about Thomas Tribou
existing, which it turns out he does exist. He signed
the purchase order, and they told the criminal jury he
didn't sign the purchase order. He delivered a $50,000
check, and they told the jury he didn't deliver a
$50,000 check.
So, Your Honor, in the event -- in the discovery
-- now we turn to Yossi Keret. In the discovery -- and
I understand the Court has not reviewed that matter
yet, and I'm not going to go into it in any great detail.
But the SEC objected that it's burdensome to tell us
what Yossi Keret said about the purchase orders if in
fact he said something. They objected, the SEC, on the
grounds of investigatory privilege and that it's
burdensome to tell me if Yossi Keret told them on the
telephone or in person that these purchase orders
were real.
Your Honor, there is additional doubt from the
record -- and I argue that once we see that the issues
are not identical -- in fact, the polar opposite -- I
believe that the Court is obligated at that point and
should make a more probing review of the record.
If it did that, Your Honor, and if it felt it was
appropriate to do that, I think the Court would see at
docket entry -- the Court can take a note and review
this later. I don't want to belabor the point. Docket

App-61
entry 185-3 at 8, Exhibit 10 to my declaration dated
January 12 is a 302 from the only witness who
testified that I made these things up, which I did not.
That witness's name is Martin Carter, and he testified
clearly that I made these people's names up as did the
government. They said the same thing. But in his 302
with the postal inspector, Mr. Carter said that he -not me -- made these people's names up.
Your Honor, I'm now going -- unless the Court
has any questions about this -- I would like to also cite
Ismail versus Ford, which is April 2014, Central
District of California. It's Ismail, 2014 Westlaw 168
(1993). At 7, it says that a request, Your Honor, under
-- for discovery under subsection (d) is to be liberally
applied on Motions for Summary Judgment. I know
that law is well settled.
The SEC investigated these people because
they are citing the investigative privilege in the
discovery, but it refuses to tell us the content of those
discussions or to produce any documents citing
investigatory privilege. As I said, I don't think it's
appropriate, unless the Court wants me to, to go into
the discovery motions. But the investigatory privilege
under the case law has lapsed. I have already been
convicted.
So I respectfully submit the discovery should be
ruled upon first before summary judgment is granted
if the Court is still inclined to do so under 56(d).
THE COURT: You don't have a formal 56(d)
application before the Court do you?
MR. STEIN: No, I don't, but under the case law
that we've cited, including Ismail versus Ford, the

App-62
affidavit that I have submitted, as well as the request
in the brief, is more than enough because the discovery
is pending. If the Court felt that it was not enough, I
would like to have an opportunity to file that, but I
think the case law is clear that by the outstanding
discovery motions -- and we cited 56(d) in our
opposition. But, obviously, the Court will make
whatever ruling it makes there.
Your Honor, with respect to the Cross-Motion
for Summary Judgment, the correct link to the SEC
website was always on Exhibit 4, and I apologize that
it was broken as the Court pointed out in the brief. We
have resubmitted it this morning in an errata. But,
Your Honor, this should not be disputed. There was
adjusted for the split over one billion shares, naked
short sold, during the year when this fraud happened
in a company that had 60 million shares outstanding.
Everything -- to the extent there is a trial, everything
that I will prove will have to be in the light of these
short sales, because every board member was talking
about it, and everything the company did had
something to do with it.
I request, Your Honor, that if the SEC denies
that this is the truth that they simply be required to
do what I have had to do, submit a separate statement
and say denied.
The evidence is this. They didn't deny it. All
they did in their response on that issue is say that -and then I am basically through. They said that they
are at a loss for what I desire other than mentioning
the relief in the first and last paragraphs of my
opposition, that I, quote, "do not address the legal or
factual basis for my cross-motion," but I filed a

App-63
separate motion which they haven't referenced. They
then say the motion is untimely, which I pointed out
it wasn't, but they never denied the facts.
I understand this case may never be tried for
me, but to the extent it is, I don't know why I should
be put to the burden of having to establish the
fundamental fact behind why the company did
everything it did through expert testimony and the
rest when there can be no dispute as to the SEC's
website.
Your Honor, I would like to reserve one minute
to formally request a continuance on a 56(d) if the
Court is still inclined to grant the motion, but I
appreciate the Court allowing me to argue so long.
THE COURT: Mr. Donnelly.
MR. DONNELLY: Your Honor, Mr. Stein's
argument is basically just an attack on what occurred
in his criminal case. We think that the Court got it
right in the tentative.
We do note that on Page 2 there is a
typographical error, and it could have been from us.
We apologize. At the very top, on December 13, 2012,
it should say I think 2011. That's when Mr. Stein was
indicted.
Just to the point about the purchase orders,
that's one of three purchase orders, Your Honor, that's
at issue. He was criminally convicted of falsifying
these purchase orders, and that's what's relevant. Our
allegations are what our allegations are. They are not
admissions. That's what frames what is to be litigated.
Most of what Mr. Stein has argued is simply an
attack on the fairness of his trial in the Southern

App-64
District of Florida. There is no evidence that he
received an unfair trial. There is no evidence that he
was railroaded there. He was properly convicted, and
we believe that that conviction supports collateral
estoppel here.
To his request suddenly for Rule 56(d), it's far
to late to grant such a request, Your Honor. That's
about all I have, unless the Court has any questions.
THE COURT: Well, did the SEC take two
different positions with regard to this purchase order?
MR. DONNELLY: Your Honor, we made
allegations in Paragraph 40 of the Complaint. There
was really no discovery done in this case to flush out
what the truth was with respect to those allegations
because Mr. Stein was criminally convicted, and our
plan all along was to move for collateral estoppel for
that, so I can't tell you sitting here today what the
truth is.
We are not truth-finders as the SEC. We make
allegations. The jury obviously found a truth that's
applicable here, and it's only one of three purchase
orders. The other two are still in play. Even assuming
that this is irrelevant, he was still convicted of fraud
with respect to those other two purchase orders in the
criminal case, and that has application here as well.
THE COURT: But come back to my question:
Were two different positions taken as to whether this
purchase order, Exhibit 64, in the criminal trial was
real or not real?
MR. DONNELLY: Well, Your Honor, we do
allege in Paragraph 42 of the Complaint that this
entity, Cardiac Hospital Management, is a fictitious

App-65
entity. So it was our position in this case that the
entity itself was fictitious. It may have been signed by
this individual, but Mr. Stein completed this purchase
order, and the entity that it was completed for was a
fictitious entity. There was no sale.
THE COURT: What was the result of the
purchase order in the criminal case?
MR. DONNELLY: What's that, Your Honor?
THE COURT: What did jury do with this
purchase order in the criminal case?
MR. DONNELLY: Your Honor, I don't know if
the jury did anything specific with this purchase
order. There wasn't like a special verdict directed to
just this purchase order. So I don't know what the jury
found with respect to this purchase order.
We do know that he was criminally convicted.
At issue in the criminal case was the were these
purchase orders? And he was found guilty of securities
fraud and wire fraud and mail fraud as it related to
the purchase orders.
THE COURT: But how did the government
present the case in the criminal case with regard to
this purchase order?
MR. DONNELLY: They alleged -- as Mr. Stein
is saying, they alleged that the signatures were false,
Your Honor, and they also alleged that the entity itself
was false, Cardiac Hospital Management.
Mr. Stein is seizing on an allegation in
Paragraph 40 that we made very early on in this case
before Mr. Stein was indicted. So, I mean -- again, as
I said, sure we haven't amended Paragraph 40, but it's
sort of beside the point at this point.

App-66
And as my colleague points out, if the entity
doesn't exist, Your Honor, the signature has to be
false, even if a real person signed it.
THE COURT: Understood.
MR. DONNELLY: Okay.
THE COURT: Anything further?
MR. DONNELLY: No, Your Honor.
THE COURT: Mr. Stein.
MR. STEIN: Yes, Your Honor. Unfortunately,
Your Honor, I hate to say I am dumbfounded. The SEC
-- first of all, are they claiming this purchase order was
not signed by Mr. Tribou because he testified in their
investigation that he signed it?
And at trial in the criminal case, the prosecutor
said to the jury: If Tom Tribou is Cardiac Hospital
Management, where is his name? Where is his name?
Does it say sold to Tom Tribou? Take a look at
Government's Exhibit 64, the $1.98 million purchase
order. See if his name or signature appears on there.
It's on Page 11.
The jury believed because they told them – as
this Court has pointed out under Emich Motors, the
Court can review the record and see -- and that's, by
the way, Your Honor, Government's Exhibit 2 to the
Summary Judgment Motion what I just quoted -- and
you can see from the record that this jury necessarily
found that this purchase order was forged, that the
signature did not exist. The issues have to be identical.
I understand I have been convicted and this
might be it for me. All I ask is an opportunity to follow

App-67
the law regarding the identicality of issues that were
necessarily decided.
And I think the Court is supposed to ask itself,
under Emich Motors and under Littlejohn, if the
criminal jury had been told that Thomas Tribou not
only existed but signed this purchase order and agreed
to pay $1.98 million and delivered a $50,000 check,
and with all the other impeachment of Martin Carter,
would they have still convicted me?
This civil case -- it's a different case. This is a
completely different case. Your Honor, that's -- that's
my first response. By the way, that's on Page 11 where
the government made their argument to the jury. It's
in a chart referencing the portion of that transcript.
But, Your Honor, it's actually much worse than
that. Because with $1.98 million of legitimate sales, no
matter what happened afterwards, there is colloquy
between Judge Marra and I and the prosecutors where
I said -- and I quote: "This idea of fake people" -- I was
completely shocked at trial when they started talking
about fake people. They never told me they were going
to do that. I understand they have no obligation to. I
just didn't – I couldn't believe it.
There is no allegation that I ever touched these
purchase orders, put my hands on them, or that
actually I'm the one that signed it. I wasn't an officer
or director of the company.
Martin Carter is the only one that alleged it,
Your Honor. He's the only one. The SEC will not tell
you to the contrary. It was one person, and it turns out
he is wrong. And it turns out the SEC and DOJ have
different theories and different facts.

App-68
To say that Paragraph 40 is not a judicial
admission, Your Honor, runs counter to the
controlling law in the Eleventh Circuit and the Ninth
Circuit. The admission at Paragraph 40 is an
admission particularly for purposes of applying
offensive collateral estoppel in which the law is very
clear that the Court has to be very careful.
So I would again request that the motion be
denied. If it's denied without prejudice and the Court
wants to -- I understand they need to get to trial. If
Court would streamline the discovery perhaps just to
produce those documents related to these people or -we would streamline the motion -- then it would be
fair.
Right now the Court is about to enter judgment
against me if it follows what the SEC is requesting
that necessarily includes a fact that it knows is
probably untrue, that this purchase order was forged
and that the $50,000 was not delivered. It was
delivered. It was a $1.98 million purchase order. I
have been sentenced to 17 years because it wasn't and
yet it was.
I would ask the Court if there is any inclination
to grant the motion to please carefully review the case
law regarding a continuance for the discovery, because
I believe that I have done more than is necessary in
the opposition to qualify for such a continuance.
THE COURT: Mr. Donnelly.
MR. DONNELLY: Your Honor, if I may just add
to the point I was making earlier. This is one of three
purchase orders. This one purchase order is a red
herring.

App-69
Let's assume for the sake of argument that
there is not a perfect alignment between the
allegations made in the criminal case on this one
purchase order and the allegations made in this case.
Let's assume for purpose of argument that there is not
a perfect alignment in exactly the facts that each -that the government alleged and the SEC alleged.
There are two still other purchase orders. He was
criminally convicted on those as well. Those are also
in our Complaint here.
The government in the criminal case charged
him with obstruction of justice. We don't charge him
with obstruction of justice. That's not a reason to not
apply collateral estoppel. Collateral estoppel still
applies.
If Your Honor wants to for safety purposes or
whatever carve out one of these purchase orders, it
really doesn't matter. I mean, he has been criminally
convicted of securities fraud. He should be civilly
found liable for the securities fraud.
THE COURT: As the Court reviews the record
in the criminal case, there is no finding with respect to
each contract, correct?
MR. STEIN: That's correct.
THE COURT: There is simply a finding, a
general verdict, he violated the statute?
MR. STEIN: That's correct.
MR. DONNELLY: Right.
THE COURT: I'm talking to Mr. Donnelly now.
MR. STEIN: I'm sorry, Your Honor.

App-70
THE COURT: So in theory, the jury could have
found one contract violative, and that would have been
sufficient to support its various verdicts; isn't that
true?
MR. DONNELLY: Yes, Your Honor, that's true.
THE COURT: I guess what I am saying in a
roundabout way does disregarding this one contract
really work given the nature of the verdict?
MR. DONNELLY: I don't know the answer to
that, Your Honor.
THE COURT: Assuming I hold to the tentative,
I assume the SEC would not wish to proceed further
against Mr. Stein.
MR. DONNELLY: Your Honor, as soon as there
is a final ruling, we will seek our client's permission to
drop the other claims against Mr. Stein, and we will
hopefully have that permission within a matter of a
few days. We are already working to get that
permission now on the assumption that the tentative
stands.
THE COURT: Have you had any further
discussions with Mr. Gault?
MR. DONNELLY: No, Your Honor, we have
not. I will let Mr. Gault's counsel speak to that,
though.
MR. NEWHOUSE: Your Honor, it would
appear that Mr. Gault will proceed to trial, which is -that's the reason I'm here -- that is scheduled to begin
in two weeks.
Of course we have the pretrial conference next
week, and it makes a big difference. If Mr. Stein is part

App-71
of our trial, then our trial will be much more
complicated than the Gault case.
THE COURT: Well, I want to take one more
look at this, so the matter will stand submitted. We'll
try and get it out promptly.
MR. DONNELLY: Thank you.
***
CERTIFICATE
I hereby certify that pursuant to Section 753,
Title 28, United States Code, the foregoing is a true
and correct transcript of the stenographically reported
proceedings held in the above-entitled matter and that
the transcript page format is in conformance with the
regulations of the Judicial Conference of the United
States.
Date: March 30, 2015
/s/ Sharon A. Seffens 3/30/15
SHARON A. SEFFENS, U.S. COURT REPORTER

App-72
Appendix G
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
________________
Case No. SACV11-1962-JVS(ANx)
________________
SECURITIES AND EXCHANGE COMMISSION,
Plaintiff,
v.
HEART TRONICS, INC., MITCHELL JAY STEIN,
WILLIE JAMES GAULT, J. ROWLAND PERKINS,
II, MARTIN BERT CARTER, MARK CROSBY
NEVDAHL, and RYAN ALLAN RAUCH,
Defendants,
TRACEY HAMPTON-STEIN, ARC FINANCE
GROUP, LLC, ARC BLIND TRUST, THS BLIND
TRUST, JAYMI BLIND TRUST, OAK TREE
INVESTMENTS BLIND TRUST, WBT
INVESTMENTS BLIND TRUST, CATCH 83
GENERAL PARTNERSHIP, and FIVE
INVESTMENTS PARTNERSHIP,
Relief Defendants.
________________
Filed: Dec. 20, 2011
________________
COMPLAINT
Plaintiff Securities and Exchange Commission
(the "Commission") alleges:

App-73
SUMMARY
1.
Between December 2005 and December
2008, defendant Mitchell J. Stein ("Stein"), the
purported outside counsel of defendant Heart Tronics,
Inc. (f/k/a Signalife, Inc. and Recom Managed
Systems, Inc.) ("Heart Tronics" or the "Company") and
husband of its majority shareholder, orchestrated a
brazen series of frauds designed to inflate the price of
Heart Tronics stock so that he could profit from selling
its securities to investors.
2.
Stein held himself out as Heart Tronics'
outside counsel and claimed not to be a Company
officer or director; however, in practice, Stein was a de
facto officer who controlled many of Heart Tronics'
business decisions and public disclosures. In that
capacity,
Stein
orchestrated
the
repeated
announcement of fictitious sales orders for Heart
Tronics' products in public filings with the
Commission, press releases, and other public
broadcasts, all designed to make it appear that Heart
Tronics was more successful than it actually was.
Stein also installed former professional football player
Willie Gault ("Gault") as a figurehead co-CEO along
with former Hollywood executive J. Rowland Perkins
("Perkins") in order to generate publicity for the
company and foster investor confidence. Through this
and other fraudulent schemes described below, Stein
was able to obtain for himself millions of dollars in illgotten gains at the expense of public investors.
3.
In 2002, Stein's wife, relief defendant
Tracey Hampton-Stein ("Hampton-Stein"), became
the largest shareholder of Heart Tronics, owning
approximately 85% of the Company's common stock.

App-74
She owned this stock through a holding company,
relief defendant ARC Finance Group, LLC ("ARC
Finance"). From at least December 2005 through
September 2008, while Stein was orchestrating a
campaign of misinformation designed to inflate the
price of Heart Tronics stock, Stein and Hampton-Stein
(collectively, "the Steins") directed the sale of more
than $5.8 million worth of Heart Tronics stock without
disclosing it to the public as required by law. To
conceal their purchases, the Steins used accounts in
the name of purportedly blind trusts and other
nominee entities, identified above as relief defendants.
The Steins used the proceeds of the sales to fund their
lavish lifestyle, which included multiple homes, exotic
cars, and private jets.
4.
To accomplish this, Stein enlisted
defendant Mark Nevdahl ("Nevdahl"), a registered
representative of a broker-dealer registered with the
Commission (stock broker) to act as the trustee on the
blind trust accounts. This created the façade that the
Steins' Heart Tronics stock was held by separate legal
entities under the control of an independent trustee,
when, in fact, the trusts were "blind" in name only.
Nevdahl met the Steins' regular demands for cash by
continually selling Heart Tronics stock through the
trusts. The blind trusts were further designed as part
of a scheme to avoid the required regular public
disclosures under the federal securities laws of ARC
Finance's sales.
5.
Stein was also aided in his fraudulent
schemes by, among others, defendant Martin Carter
("Carter"). For example, Stein and Carter fabricated
documents designed to make it appear to Company

App-75
officers that Heart Tronics had entered into viable
sales orders for millions of dollars worth of Heart
Tronics products when, in fact, it did not.
6.
At the same time, Stein drafted false and
misleading press releases and other public statements
for the Company to announce sales orders, or directed
other Company officers to draft public statements
based on false and misleading information he
provided.
7.
For his role in the scheme, Carter
received, among other things, approximately $600,000
in cash and approximately $1.4 million in improperly
registered Heart Tronics stock pursuant to a sham
consulting agreement between Carter and Heart
Tronics. At Stein's direction, Carter sold the Heart
Tronics stock in the market and kicked-back
substantially all the cash and proceeds of the stock
sales to Stein.
8.
During the relevant period, although
nominally the senior-most officers of Heart Tronics,
Gault and Perkins rarely questioned Stein's direction
and abdicated their fiduciary responsibilities to Heart
Tronics shareholders. Among other things, Gault and
Perkins signed, or unlawfully authorized to be signed,
public Commission filings containing false statements
about the Company's purported sales.
9.
In late 2008, Stein and Gault also
defrauded an individual investor into making a
substantial investment in Heart Tronics based on,
among other things, materially false representations
that the proceeds of the investment would be used for
the Company's operational expenses. Instead, Stein
and Gault diverted the investor's proceeds for their

App-76
personal use, including the purchase of Heart Tronics
stock on the open market to create the appearance of
active trading volume and to inflate Heart Tronics'
stock price.
10.
In an additional effort to artificially
inflate Heart Tronics' stock price, Stein caused Heart
Tronics to hire promoters to tout Heart Tronics' stock
to investors. One such promoter, defendant Ryan
Rauch ("Rauch"), solicited numerous investment
advisers, institutional and retail brokers, and other
investors to buy Heart Tronics stock. Rauch purported
to give objective recommendations, but failed to
disclose that he was being compensated by the
Company in exchange for his promotion.
11.
By the third quarter of 2008, Heart
Tronics had incurred cumulative net losses of more
than $60 million, and it has been delinquent in its
public filings with the Commission since it failed to file
its Form 10-K for fiscal year 2008. Stein and the other
defendants, however, reaped ill-gotten gains from
their violations of the federal securities laws of
approximately $8 million.
12.
By engaging in the practices and
transactions alleged in this Complaint, defendants
violated numerous provisions of the federal securities
laws.
JURISDICTION AND VENUE
13.
This Court has jurisdiction over this
action pursuant to Sections 20(b), 20(d)(I), and 22(a)
of the Securities Act [15 U.S.C. §§ 77t(b), 77t(d)(1) &
77v(a)], and Sections 21(d), 21(e) and 27 of the
Exchange Act [15 U.S.C. §§ 78u(d), 78u( e), and 78aa].

App-77
14.
Venue in this District is proper pursuant
to Section 22(a) of the Securities Act [15 U.S.C. §
77v(a)] and Section 27 of the Exchange Act [15 U.S.C.
§ 78aa] because acts or transactions constituting
federal securities law violations occurred within the
Central District of California and several of the
defendants reside in this district.
15.
Defendants, directly or indirectly, made
use of the mails and of the means and
instrumentalities of interstate commerce in
furtherance of the acts, practices and courses of
business described in this Complaint.
DEFENDANTS
16.
Heart Tronics is a Delaware corporation
headquartered during the relevant period in Studio
City, California and, earlier, in Greenville, South
Carolina. During various time periods relevant to this
Complaint, Heart Tronics was known by its prior
corporate names, including primarily "Signalife, Inc."
from November 2, 2005 through November 20, 2008;
accordingly, all references herein to "Heart Tronics"
refer to Company under its prior names as well as
under the name Heart Tronics, Inc. Heart Tronics
became a public company in 2002 via a reverse merger
with a public shell company. Heart Tronics purports
to sell a proprietary electrocardiogram (heart
monitoring device) called the Fidelity 100. At all
relevant times, the Company's common stock was
registered with the Commission pursuant to Section
12(g) of the Exchange Act. At all relevant times, Heart
Tronics filed reports with the Commission pursuant to
Section 13 of the Exchange Act. The common stock of
Heart Tronics was listed on the American Stock

App-78
Exchange ("AMEX") from approximately June 8, 2005
until September 15, 2008. Heart Tronics' stock is now
quoted on the OTC Link (formerly "Pink Sheets")
under the symbol "HRTT.PK."
17.
Mitchell Jay Stein ("Stein") is a
California attorney who has purportedly acted as
outside counsel to Heart Tronics from approximately
2002 to the present. From at least December 2005
through December 2008, Stein effectively controlled
Heart Tronics and its officers, but nominally was not
an officer, director or shareholder of the Company.
Stein is married to relief defendant Tracey HamptonStein. Stein is a United States citizen living in Hidden
Hills, California.
18.
Willie James Gault ("Gault") is a former
professional football player. From approximately
October 15, 2008, through June 23, 2011, Gault was
Heart
Tronics'
President
and
"co-CEO
of
Administration." Gault also served on Heart Tronics'
Board of Directors from approximately July 28, 2008,
through June 23, 2011. Gault is a United States
citizen living in Encino, California.
19.
J. Rowland Perkins II ("Perkins") is the
current Chief Executive Officer of Heart Tronics.
Perkins served as Heart Tronics' interim CEO
beginning on or about May 1, 2008. He became CEO
on or about June 1, 2008, but later shared
responsibility with Gault as "co-CEO for Operations."
Perkins has served on Heart Tronics' Board of
Directors since approximately August 23, 2005, in
roles including Chairman and member of the Audit
Committee. Previously, Perkins was a founder of the
Creative Artists Agency talent agency. Perkins is a

App-79
United States
California.

citizen

living in

Beverly

Hills,

20.
Martin Bert Carter ("Carter") was
purportedly a consultant to Heart Tronics from
approximately January 20, 2008, through November
5, 2008. Carter is an unlicensed electrician who
provided handyman, chauffer and other personal
services for Stein. Carter is a United States citizen
living in Boca Raton, Florida.
21.
Mark Crosby Nevdahl ("Nevdahl") is a
registered representative presently associated with a
broker-dealer firm registered with the Commission. At
all relevant times, Nevdahl served as the stock broker
and trustee for the purportedly blind trusts
beneficially owned by the Steins. Nevdahl is a United
States citizen living in Spokane, Washington.
22.
Ryan Allan Rauch ("Rauch") is a former
securities research analyst who was an "investor
relations" consultant to Heart Tronics from
approximately January 30, 2008 through late April
2008. Rauch is believed to be unemployed. Rauch is a
United States citizen living in San Clemente,
California.
RELIEF DEFENDANTS
23.
Tracey
Hampton-Stein
("HamptonStein"), the wife of Stein, is the sole managing member
of ARC Finance Group LLC, Heart Tronics' largest
shareholder. Hampton-Stein is believed to be
unemployed. Hampton-Stein is a United States citizen
living in Hidden Hills, California. Hampton-Stein was
unjustly enriched by receiving the proceeds of the
unlawful sale of Heart Tronics stock.

App-80
24.
ARC Finance Group LLC ("ARC
Finance") is a single-member Delaware limited
liability company formed in 2002 by Hampton-Stein.
ARC Finance is a shell company that has no business
operations, and its address is a private mailbox in
Boca Raton, Florida shared by Stein and HamptonStein. ARC Finance has held a majority position of
Heart Tronics' securities (originally approximately
85%) since 2002. ARC Finance was unjustly enriched
by receiving the proceeds of the unlawful sale of Heart
Tronics stock.
25.
ARC Blind Trust is a purportedly blind
trust established on or about December 19, 2005 under
the laws of the State of Nevada. ARC Finance was
both the settlor and the beneficiary of the trust.
Nevdahl served as both the trustee and the broker of
the trust's brokerage account. ARC Blind Trust was
unjustly enriched by receiving the proceeds of the
unlawful sale of Heart Tronics stock.
26.
THS Blind Trust is a purportedly blind
trust established on or about August 1, 2005 under the
laws of the State of Nevada. ARC Finance was the
settlor of the trust and Mitchell Stein was the
beneficiary. Nevdahl served as both the trustee and
the broker of the trust's brokerage account. THS Blind
Trust was unjustly enriched by receiving the proceeds
of the unlawful sale of Heart Tronics stock.
27.
JAYMI Blind Trust is a purportedly
blind trust established on or about March 2, 2007
under the laws of the State of Nevada. ARC Finance
was both the settlor and the beneficiary of the trust.
Nevdahl served as both the trustee of the trust and
broker of the trust's brokerage account. JAYMI Blind

App-81
Trust was unjustly enriched by receiving shares of
Heart Tronics stock from ARC Finance and the
proceeds of the unlawful sale of Heart Tronics stock.
28.
Oak Tree Investments Blind Trust is a
purportedly blind trust established on or about March
30, 2008, under the laws of the State of Nevada. ARC
Finance was both the settlor and the beneficiary of the
trust. Nevdahl served as the co-trustee and the broker
of the trust's brokerage account. The Steins' former
housekeeper served as the other co-trustee. Oak Tree
Investments Blind Trust was unjustly enriched by
receiving shares of Heart Tronics stock from ARC
Finance.
29.
WBT Investments Blind Trust is a
purportedly blind trust established on or about
September 21, 2007 under the laws of the State of
Nevada. ARC Finance was both the settlor and the
beneficiary of the trust. Nevdahl served as both the
trustee of the trust and broker of the trust's brokerage
account. WBT Investments Blind Trust was unjustly
enriched by receiving shares of Heart Tronics stock
from ARC Finance.
30.
Catch 83 General Partnership is a
general partnership formed on or about April 5, 2005
between Gault and his daughter. Gault conducted his
personal securities trading through brokerage
accounts in the name of Catch 83 General
Partnership, and Nevdahl served as the broker. Catch
83 General Partnership was unjustly enriched by
receiving investor capital diverted from Heart Tronics
and the proceeds of the unlawful sale of Heart Tronics
stock.

App-82
31.
Five Investments Partnership is a
general partnership formed on or about December 11,
2006 under the laws of the State of Nevada between
Stein and Carter. Nevdahl was the broker on Five
Investments' brokerage account. Five Investments
Partnership was unjustly enriched by receiving shares
of stock issued by Heart Tronics from transactions
unlawfully registered with the Commission on Form
S-8, or the proceeds from the unlawful sale of such
stock.
OTHER RELEVANT PERSON
32.
Dr. Lowell T. Harmison, Ph. D.,
deceased, served as President and Chief Operating
Officer of Heart Tronics beginning on July 2, 2007. He
served as President and CEO from August 17, 2007,
through June 2, 2008. Harmison also served as a
member of Heart Tronics' Board of Directors from
June 6, 2003, to June 8, 2008.
FACTUAL ALLEGATIONS
I.

Schemes to Inflate the Price of Heart
Tronics Stock

33.
From at least December 2005 through
December 2008, Stein, together at times with certain
of his co-defendants, engaged in fraudulent schemes
to inflate the price of Heart Tronics stock. They did so
primarily through a campaign of misinformation
centered around falsely reporting fictitious sales
orders of Heart Tronics' flagship product, the Fidelity
100, in an effort to make Heart Tronics appear more
successful than it was.

App-83
A.

Fraudulent Disclosure of Sales
Revenue in 2006

34.
In approximately September 2006, after
previously having arranged a failed joint sales
marketing arrangement with another company, Stein
arranged a transaction to create the false impression
that Heart Tronics had made, and profited from, its
first sale of its Fidelity 100 product.
35.
More specifically, Stein arranged for a
company that specialized in leasing cars and
equipment (the "Leasing Company") to finance a lease
of Fidelity 100 units from Heart Tronics to a doctor in
Los Angeles (the "Doctor"). The Leasing Company,
which had previously leased luxury cars to Stein,
agreed to finance the transaction based on Stein's
representations that the Doctor was a bona fide
customer, that Stein would personally guarantee the
loan, and that the product would be used by the Doctor
for medical purposes. The Doctor was a personal
friend of Stein's, whom Stein brought into the
transaction after another physician declined to
participate further. In fact, as discussed further below,
the Doctor had no legitimate interest in the units and
was simply a straw purchaser arranged by Stein.
36.
In approximately September 2006, the
Leasing Company agreed to purchase 11 units of
Heart Tronics' Fidelity 100 product and lease them to
the Doctor. On or about September 30, 2006, the
Leasing Company issued a check for the full purchase
price payable to Heart Tronics. Under the
arrangement, Heart Tronics would deliver the Fidelity
100 to the Doctor pursuant to a separate purchase or
lease agreement.

App-84
37.
On or about September 20, 2006, in
connection with this purported sale to the Doctor,
Heart Tronics issued a materially false and
misleading press release announcing that the Fidelity
100 "has been sold and shipped to everyone from
surgeons to cardiologists to internists, to, as well, a
multi-billion-dollar corporation." The press release
was drafted by Stein or by others based solely on
information provided by Stein.
38.
In fact, as noted above, the Doctor was
not a bonafide purchaser. Indeed, the Doctor's initial
deposit payment to the Leasing Company failed to
clear for insufficient funds, and the Leasing Company
did not receive any further payments from the Doctor.
The Leasing Company then sought and obtained
partial repayment from Stein based on his guarantee
of the transaction. While described by the Company as
a legitimate sale, Stein effectively self-funded the
Doctor's purported lease from September 2006 to
September 2008 by paying over $100,000 to the
Leasing Company. Stein concealed this fact from
Heart Tronics' Chief Financial Officer ("CFO"), its
auditor, its outside securities disclosure counsel (the
"Disclosure Lawyer"), and its other officers. In 2008,
Stein ceased making payments to the Leasing
Company, and the Leasing Company re-possessed at
least 8 of the 11 units in their original, unopened
shipping boxes.
39.
Notwithstanding these facts, beginning
with its Form 10-Q for the third quarter 2006, which
the Company filed with the Commission on November
13, 2006, Heart Tronics stated that it had "recently
commenced commercial marketing of our ... Fidelity

App-85
100 Monitor System, and recorded our first revenues
from product sales in October 2006." In substantially
the same words, Heart Tronics repeated these
disclosures in each subsequent quarterly and annual
report filed with the Commission through April 3,
2008. In addition, Heart Tronics' financial statements
included in the Forms 10-K filed with the Commission
on April 2, 2007 and April 3, 2008 reported revenue
from product sales of $190,170 in 2006, driven
primarily by this purported sale. This was the only
sales revenue recorded by Heart Tronics in its
corporate history; the Company never completed any
further sales to any customer. The repeated reporting
of this sales revenue from the purported sale to the
Doctor, without disclosing the true facts surrounding
the purported sale or its financing (including the fact
that it was a related-party transaction), was
materially false and misleading.
B. Fraudulent Disclosure of Two
Additional Fictitious Sales in
September 2007
1. Fraudulent Sale to "Cardiac Hospital
Management"
40.
On approximately September 14, 2007,
Heart Tronics contracted to sell approximately $2
million worth of its Fidelity 100 product to an
individual located in Portland, Oregon (the
"Customer"), who had a prior relationship with Lowell
Harmison, then the CEO of Heart Tronics. More
specifically, the Customer signed an order to purchase
180 units of the Fidelity 100 for $1,980,000. Stein
negotiated and drafted the purchase order with the
Customer, and it was signed on behalf of Heart

App-86
Tronics by Harmison. The Customer sent Heart
Tronics a personal check for $50,000 as a deposit for
the units.
41.
Heart Tronics disclosed the sales order in
a press release dated September 20, 2007 and in the
following periodic reports filed with the Commission:
(a) Form 10-Q filed November 14, 2007; (b) Form 10-K
filed April 3, 2008; (c) Form 10-Q filed May 15, 2008;
and (d) Form 10-Q filed August 15, 2008. These
disclosures were drafted by Stein, or by others based
solely on information provided by Stein. As discussed
further below, each of these disclosures was materially
false and misleading.
42.
Although the Customer contracted to
purchase the units in his personal capacity for use in
the medical supply business he owned, the purchase
order that was counter-signed by Harmison and
returned to the Customer identified the Customer as
"Cardiac Hospital Management" ("CHM"). CHM is a
fictitious entity that was not known to the Customer.
43.
At the time of the signing of the purchase
order, Stein and Harmison falsely told the Customer
that the Fidelity 100 units were fully manufactured
and ready to be shipped. Over the subsequent months,
however, Heart Tronics failed to ship any product to
the Customer, blaming the delay on manufacturing
problems beyond its control. Accordingly, the
Customer terminated the purchase order and had no
further contact with Heart Tronics or its officers.
Heart Tronics did not return the Customer's deposit.
44.
When it became clear that Heart Tronics
could not deliver the product and the Customer was
canceling his order, Stein orchestrated an elaborate

App-87
scheme to mislead Heart Tronics' officers, its auditors,
and the public about the sale's continued viability. The
ruse began with a letter dated December 31, 2007,
purportedly sent from "CHM," the nominal purchaser
inserted on the Customer's September 14,2007 sales
order, indicating that CHM intended for the sale to
move forward. The letter provided a "new address" in
Tokyo, Japan, and was signed in the name of "Toni
Nonoy," the purported purchasing agent of CHM.
45.
In fact, this letter was one of many bogus
documents created by Stein and Carter to create the
illusion that Heart Tronics had a viable sales order.
Stein provided the fraudulent letter to Heart Tronics'
officers, and the false document was retained in the
Company's books and records as support for the
continued disclosure of the pending sale.
46.
By March 2008, Heart Tronics still had
not shipped any product to CHM which, as discussed
above, did not exist. However, Stein sought to ensure
that the pending purchase order was still included in
the Company's public filings with the Commission
because reporting sales orders would inflate the price
of Heart Tronics' stock and potentially attract new
investors or customers.
47.
Given the materiality of the $1.98 million
dollar sales order to the Company's financial
disclosures, in connection with preparing the
Company's disclosures in the Form 10-K to be filed in
April 2008, Heart Tronics' CFO and Disclosure
Lawyer sought to obtain confirmation from CHM of its
intention to complete the purchase. Stein provided
them with a toll-free fax number, purportedly for
CHM, to which they could send such a request for

App-88
confirmation. On March 21, 2008, the Disclosure
Lawyer and CFO faxed a confirmation letter to CHM
at the number that had been provided by Stein.
Unbeknownst to the Disclosure Lawyer or CFO, the
toll-free number had, in fact, been registered by Carter
at Stein's request as part of the scheme to continue the
facade that there was a legitimate purchaser on the
other end of the CHM sales order.
48.
On March 25, 2008, a confirmation letter,
purportedly signed by CHM's "Tony Nony" (a different
spelling of the name of the purported CHM purchasing
agent) was returned to the Disclosure Lawyer and
CFO by facsimile. In fact, Carter, pretending to be
"Tony Nony," fraudulently signed and transmitted the
false confirmation letter to the Disclosure Lawyer and
CFO at Stein's direction. Indeed, the fax number from
which the facsimile was sent was registered to
Carter's residence in Boca Raton, Florida.
49.
Over the ensuing months, Carter and
Stein prepared other false documents to give the
impression to Heart Tronics' officers, as well as the
public, that the CHM sale was still viable. For
example, in June 2008, Stein gave Carter an envelope
addressed to Heart Tronics and instructed him to
travel to Tokyo, Japan to mail the letter back to Heart
Tronics to create the appearance that it originated
from Japan. Carter made a one-day round trip to
Japan in approximately July 2008 to carry out Stein's
instructions.
50.
Harmison, the CFO, the Disclosure
Lawyer, and Heart Tronics' auditors relied on the false
documents prepared by Stein and Carter in preparing
and filing the Company's 2007·Form 10-K and Form

App-89
10-Qs for the fiscal quarters ended September
30,2007, March 31, 2008, and June 30, 2008 (filed on
April 3, 2008, November 14, 2007, May 15, 2008, and
August 15, 2008, respectively). In each of those filings,
Heart Tronics fraudulently reported that it had a
significant pending purchase order with a
hospital/medical group purchasing organization
(CHM) with expected gross proceeds of $1,980,000.
Because the Company did not otherwise have sales
revenue, the repeated false and misleading disclosure
of these pending sales orders was plainly material.
2. Fraudulent Sale to "IT Healthcare"
51.
Meanwhile, at the same time he was
orchestrating the scheme with respect to CHM, Stein
orchestrated a similar scheme with respect to a second
fictional sales order.
52.
On approximately September 24, 2007,
Heart Tronics purportedly entered into an order to sell
300 units of the Fidelity 100 to an Israeli entity called
"IT Healthcare" for $3.3 million. On October 4, 2007,
the Company purportedly entered into a follow-on
sales order with IT Healthcare for an additional 47
units for $564,000.
53.
The sales were disclosed to the public by
the Company in press releases drafted by Stein, or by
others based solely on information provided by Stein,
dated September 25, 2007, and October 10, 2007. The
Company also disclosed the pending sales in the
following periodic reports filed with the Commission:
(a) Form 10-Q filed November 14, 2007; (b) Form 10-K
filed April 3, 2008; (c) Form 10-Q filed May 15, 2008;
and (d) Form 10-Q filed August 15, 2008.

App-90
54.
However, IT Healthcare was a fictional
company and not a bona fide purchaser of Heart
Tronics' products.
55.
Prior to this supposed sales order by IT
Healthcare, Heart Tronics had only recognized
nominal revenue from product sales related to the
purported sale involving the Doctor and the Leasing
Company in 2006. Even the supposed sales order by
CHM was valued at only approximately half the value
of the IT Healthcare order. Therefore, the press
releases and Commission filings disclosing the
pending sale to IT Healthcare were material.
56.
Stein and Carter fabricated and executed
documents related to this transaction, including the
sales orders, confirmations, and shipping instructions,
in the name of fictitious people supposedly affiliated
with IT Healthcare, just as they did for the CHM sale.
As with the fake CHM documents, several documents
supposedly written by an officer of IT Healthcare
contained disparate spellings of that person's name.
57.
As with the disclosure of the CHM sale,
in early 2008, Heart Tronics' Disclosure Lawyer and
CFO sought confirmation that the purported sales
orders from IT Healthcare were still viable prior to
disclosing them in the Company's public filings with
the Commission, because the large sales orders would
be material to investors. Accordingly, they sent a
letter to IT Healthcare, via a facsimile number
provided by Stein, requesting the customer confirm its
intention to complete the sales. In reply, the
Disclosure Lawyer and CFO received a facsimile
containing a signed confirmation and other
correspondence purportedly from IT Healthcare.

App-91
58.
In reality, just like the earlier
confirmation from CHM, this facsimile was a false
confirmation sent by Carter at Stein's instruction from
the telephone line registered at Carter's home in Boca
Raton, Florida.
59.
To enhance the illusion of legitimacy
regarding the pending sales orders to IT Healthcare,
on approximately March 28, 2008 and April 4, 2008,
the Company made two shipments of Fidelity 100
units to the fictitious IT Healthcare. On May 15, 2008,
Heart Tronics filed its Form 10-Q for the quarter
ended March 30, 2008, in which it publicly disclosed
that it had begun shipping product to customers.
Heart Tronics also issued a press release dated March
25, 2008 announcing that the Company "has been and
continues to ship orders," although the press release
pre-dated by several days actual tender of boxes to the
carrier for shipment. Regardless, for the reasons
stated below, these disclosures were materially false
and misleading.
60.
While the Company did actually ship
approximately 15 Fidelity 100 units to the attention of
"IT HealthCare-Agency Division" at an address in
Loveland, Ohio, this address was not associated with
any bona fide purchaser. Instead, this address was the
residence of Carter's high school friend, who ran a
landscaping business from his home. Stein and Carter
had arranged for Carter's friend to store the shipment
of boxes as a personal favor. To further conceal the
scheme, the telephone number for IT Healthcare that
appeared on the shipping instructions was another
toll-free telephone number registered by Carter at
Stein's direction.

App-92
61.
In approximately July or August 2008,
acting at Stein's direction, Carter collected the boxes
from his friend, tampered with the product to create
the appearance that they were defective, and returned
the units to the contract manufacturer as if they were
coming from IT Healthcare. Then, on August 15, 2008,
Heart Tronics filed its Form 10-Q for the quarter
ended June 30, 2008, in which it stated that it had
"commenced shipments on the September 24, 2007
order, however, they were returned by the lessee on
the basis that too much time had passed since the
purchase order was given."
62.
In fact, this disclosure was materially
false and misleading, as it implicitly represents that
the products were shipped to a bona fide purchaser,
.and this was not the reason that the Fidelity 100
units had been returned. Rather, Stein caused the
units to be returned to delay further discovery of his
fraudulent scheme. Indeed, once shipped, Heart
Tronics' officers, auditors and investing public would
expect to see revenue recognized in the Company's
financial statements from the sale; but because Stein
knew that the customer was non-existent and the
sales order was fictitious from the start, he concocted
the scheme to have Carter return the product to the
manufacturer as untimely and apparently defective.
C.

Fraudulent Disclosure of
Further Sales Orders and
Projected Revenue in 2008
63.
In Spring 2008, at the same time that he
was providing false information to Heart Tronics
officers and the public about the purported sales
orders to CHM and IT Healthcare, Stein caused the

App-93
Company to make false and misleading statements
about additional fraudulent sales orders designed to
inflate the price of Heart Tronics stock.
64.
On approximately March 17, 2008, Heart
Tronics issued a press release announcing that it "has
received several formal purchase and financial
commitments.... These commitments have come
internationally, including in Japan, other parts of
Asia and Europe, as well as domestically." On March
25, 2008, the Company issued a press release
announcing that it "has received an additional $7.5
million in Fidelity 100 device delivery orders in the
month of March, 2008, which the company intends to
fill during the next two quarters. The Company said it
may fill these orders sooner." Both press releases were
drafted by Stein, or by others based solely on
information provided by Stein. Both were materially
false and misleading.
65.
In fact, Heart Tronics had not entered
into formal purchase or financial commitments.
Rather, Stein—acting for the Company—had obtained
only (1) a preliminary agreement with a Korean
company regarding that company becoming a
distributor of Heart Tronics' products in Asia, and (2)
a one-page "purchase commitment" letter from a
company identified as A.R. Pacific Group ("ARPG")
that claimed to be based in Japan and was purportedly
signed by someone with the name as a person
affiliated with CHM. In addition, Stein reported to
Harmison and others that he had reached an
agreement with an unnamed Chinese company to
purchase approximately $180 million worth of Heart
Tronics' products. In all three cases, no formal orders

App-94
for Fidelity 100 units were placed, no monies were
received, and no products were shipped. These
unsubstantiated, preliminary, and ultimately illusory
sales orders were the basis for the Company's several
false or misleading public announcements.
66.
As he did with respect to the purported
purchase orders involving CHM and IT Healthcare,
the Disclosure Lawyer requested supporting
documentation from Stein related to the purported
sales to ARPG for the Company's forthcoming annual
report on Form 10-K for the year ended December 31,
2007. Stein did not provide any additional
information, and the Disclosure Lawyer refused to
include any statements about the purported sale in
the Company's annual report.
67.
On April 14, 2008, however, Harmison
held a public "webcast" over the Internet in which he
provided investors with guidance on Heart Tronics'
projected revenue for the rest of the Company's fiscal
year. The script for the webcast was drafted by Stein
and Harmison. Harmison announced more than $40
million of expected revenue for Heart Tronics over the
next five fiscal quarters. Harmison claimed this figure
was related to the supposed transactions with the
Korean, Japanese and Chinese companies described
above. Neither Stein nor Harmison had any basis for
these projections, which were materially false and
misleading.
68.
Following the webcast, Heart Tronics
directors, including Perkins, exchanged emails
revealing skepticism of the revenue projections
Harmison had made. They professed concern about

App-95
Harmison and Stein's ongoing involvement with the
Company.
69.
In late April 2008, Harmison resigned as
CEO. Perkins became the interim and, subsequently,
the permanent CEO. In addition, the Company hired
an outsider as the Company's new President.
70.
In May 2008, the new President began to
investigate the 2007 and 2008 sales orders described
above (which were still described in the Company's
public filings with the Commission as "pending
purchase orders," but for which the Company still had
not recognized any revenue). In doing so, he
discovered that the product supposedly shipped to IT
Healthcare had, in fact, been shipped to a residential
address in Ohio. He further questioned why the owner
of the property, whom he discovered ran a lawn
maintenance business, would have any reason to
purchase approximately $3.8 million worth of medical
equipment. He brought this information to Perkins'
and Stein's attention, but he was told to stop
investigating and was accused by Stein of trying to
damage the Company. Shortly thereafter, the new
President resigned from the Company.
71.
By no later than May 2008, when he took
over for Harmison as interim CEO of the Company,
Perkins knew or was reckless in not knowing that
Heart Tronics disclosures regarding pending sales of
Fidelity 100 units were false and misleading.
72.
Despite being aware of these significant
red flags and his admitted "skeptical" view of the
sales, Perkins authorized the IT Healthcare and CHM
sales orders to be disclosed in the Form 10-Qs for the
first and second fiscal quarters of 2008, which he

App-96
signed and which were filed with the Commission on
May 15, 2008, and August 15, 2008, respectively.
Perkins took no steps to determine the validity of the
purportedly pending sales orders or the projections
announced by Harmison on behalf of the Company in
April 2008. Nor did Perkins take any steps to
implement or improve upon the Company's internal
controls over financial reporting.
73.
When questioned by the Commission
staff about the decision by Perkins and other board
members not to take any steps to verify the
purportedly pending sales orders or Harmison's
claims in the webcast, Perkins testified: "We didn't do
anything to—I mean, we didn't know what to do, what
could you do. I mean, we didn't want to put fuel on the
fire. I mean, if you—what are you going to do, come
out and say it's wrong? We didn't know what to do. We
figured doing nothing was the best way to handle it."
D.

Hiring of Stock Promoters to Tout
Heart Tronics Stock
74.
At the same time that he was leading a
campaign of misinformation about the success of
Heart Tronics, Stein enlisted the assistance of several
stock promoters to tout Heart Tronics' stock on the
Internet.
75.
On approximately January 30, 2008, at
Stein's direction, Heart Tronics entered into a
consulting agreement with a former securities
research analyst, defendant Ryan Rauch, purportedly
for investor relations and corporate strategy
consulting.
76.
In reality, Rauch was a stock promoter.
Rauch solicited investment advisers, retail and

App-97
institutional brokers, and other potential investors to
buy Heart Tronics stock for themselves or for their
clients' accounts.
77.
Stein falsely told Rauch that Heart
Tronics would imminently announce up to $100
million in sales and that the Company's stock price
was artificially depressed by naked short sellers. From
approximately January through April 2008, Rauch
repeated this information to numerous potential
investors, or their brokers or investment advisers, to
encourage them to buy Heart Tronics stock. In
particular, Rauch encouraged investors to enter
orders to buy Heart Tronics stock at or near the time
of the market close to attempt to increase the closing
price of Heart Tronics' stock.
78.
Heart Tronics paid Rauch $75,000 over
three months, with a promise of a $250,000 bonus if
he could keep the Company's stock price above $1 per
share for a period of 30 days, which was one criterion
for Heart Tronics to retain its listing on the AMEX.
Rauch generally did not disclose to potential investors
that he was being compensated by the Company for
promoting Heart Tronics stock.
II.

Schemes to Profit from Sales of Heart
Tronics Stock

79.
While he was seeking to inflate the price
of Heart Tronics stock through the assorted deceptive
tactics, materially false and misleading statements,
fraudulent schemes, and other means described
above, Stein devised numerous ways to profit illicitly
from the sale of Heart Tronics securities.

App-98
A.

Fraudulent Scheme to Secretly Sell
Heart Tronics Stock
80.
Stein's primary method of profiting from
his scheme was to direct the sale of Heart Tronics
stock held by relief defendant ARC Finance, a singlemember limited liability company solely owned by his
wife, Hampton-Stein.
81.
ARC Finance had been the majority
shareholder of Heart Tronics since September 2002,
when it sold to the Company's predecessor the rights
to proprietary technology, valued at $78,023, in
exchange for 23.4 million shares of common stock
(approximately 85% of the Company's outstanding
equity).
82.
Although Stein did not file any required
forms with the SEC disclosing a beneficial ownership
position in Heart Tronics, Stein controlled the voting
of ARC Finance's shares and controlled the
investment decisions of ARC Finance's assets.
83.
On June 29,2005, Heart Tronics
registered the resale of 3.5 million of the shares held
by ARC Finance with the Commission on Form SB-2.
From July 2005 to October 2005, ARC Finance directly
sold 344,200 registered shares of Heart Tronics stock
for a profit of approximately $1.2 million.
84.
Beginning in approximately December
2005, however, Stein devised a scheme to sell ARC
Finance's shares without publicly reporting the sales,
as required under the federal securities laws. The
scheme allowed Stein to create the appearance that
ARC Finance was not selling the previously-registered
shares but, rather, holding them as a long-term
investment.

App-99
85.
Beginning in approximately December
2005, ARC Finance transferred a portion of its
holdings to two purportedly blind trust accounts, relief
defendants ARC Blind Trust and the THS Blind Trust,
established for the benefit of ARC Finance and Stein,
respectively. Defendant Mark Nevdahl was appointed
trustee for each trust, and also served as the securities
broker for each trust. This created the appearance
that the stock was held by independent legal entities
controlled by Nevdahl and that neither ARC Finance
nor Stein had control over the disposition of the trusts'
assets.
86.
Nevdahl frequently discussed the
accounts he managed for the Steins, including the
ARC Blind Trust and the THS Blind Trust, with Stein
via telephone, e-mail and correspondence sent via the
mails. On at least two occasions, Nevdahl met with the
Steins regarding the management of their investment
accounts at their home in Hidden Hills, California.
87.
Notwithstanding the fact that the trusts
were purportedly blind, ARC Finance, through Stein
and his wife, retained control over the shares that
were transferred to these trusts. At Stein's direction,
Nevdahl did not re-title the securities in the name of
the trusts. In addition, although the trusts were
purportedly "blind," Nevdahl took explicit instructions
from Stein over the trusts' corpus. Among other
things, Stein (1) told Nevdahl to generate enough cash
(necessitating the sale of stock) each month to meet
the Steins' lifestyle demands; (2) told Nevdahl how to
vote shares on proxy ballots; and (3) negotiated
"private placements" to sell shares held by one of the
trusts in off-the-market transactions. Stein also

App-100
directed Nevdahl to wire the proceeds generated by
Nevdahl's share sales to bank accounts in the name of
Stein and ARC Finance. Thus, Nevdahl knew that the
purportedly blind trusts were not, in fact, blind.
88.
Although the trust indentures placed the
obligation on Nevdahl (as trustee) to file reports of any
transactions in the trusts required by the federal
securities laws, Stein informed Nevdahl that the sales
within the trusts were exempt from the reporting
requirements under Section 16 of the Exchange Act
because the trusts were blind and held less than 10%
of Heart Tronics' equity. In light of his knowledge that
the trusts were not, in fact, blind, Nevdahl knew, or
was reckless in not knowing, that the transactions
were not exempt and that the he was participating in
a fraudulent effort to use the trusts to evade the
reporting requirements under the federal securities
laws.
89.
Nevdahl performed no independent
analysis of this and other issues pertaining to
propriety of the trusts' stock sales, nor did he seek
approval from his firm's legal or compliance
departments.
90.
Between approximately December 2005
and September 2008, the Steins, through transactions
executed by Nevdahl, covertly sold more than 3.7
million shares of Heart Tronics stock through the ARC
Blind Trust and the THS Blind Trust, for more than
$5.8 million. Because the shares had a cost basis of
approximately $0.005 per share, nearly all the
proceeds were profit.

App-101
91.
Neither Stein, ARC Finance, ARC Blind
Trust nor THS Blind Trust filed any reports with the
Commission on Forms 3, 4 or 5 during this period.
92.
Nevdahl
was
paid
brokerage
commissions of approximately $78,000, in addition to
trustee fees, for his work as trustee and broker for the
purportedly blind trusts.
93.
Stein used the purportedly "blind"
nature of the trusts to intentionally mislead investors
regarding ARC Finance's share position in Heart
Tronics' periodic reports filed with the Commission.
For example, the Company disclosed in its annual
report on Form 10-K for 2007, filed on April 3, 2008,
that "[a]s of this date neither ARC Finance Group nor
[Heart Tronics] knows if the independent trustees
have sold any of such shares or, in the alternative,
increased their position. ARC Finance Group ... to our
knowledge [] has not, to date, sold those shares." Stein
reviewed the Company's Commission filings during
2006 and 2007 and knew that the filings were
materially false and misleading. Stein knew or was
reckless in not knowing that, contrary to the
disclosures in Heart Tronics' periodic filings, shares of
Heart Tronics stock under the control of ARC Finance
were being continuously sold into the market through
the ARC Blind Trust and THS Blind Trust and that
Nevdahl was wiring the proceeds of the sales to the
Steins' bank accounts.
94.
Between approximately March 2008 and
May 2008, ARC Finance also transferred more than 10
million shares of Heart Tronics stock to three
additional trusts: relief defendants JAYMI Blind
Trust, Oak Tree Investments Blind Trust, and the

App-102
WBT Investments Blind Trust. Nevdahl was the
broker and trustee for the JAYMI Blind Trust, Oak
Tree Investments Blind Trust and WBT Investments
Blind Trust as well. On April 14, 2008, the same day
as the webcast in which Harmison announced revenue
projections of $40 million, Nevdahl sold 25,000 shares
of Heart Tronics stock on behalf of the JAYMI Blind
Trust.
B.

Schemes to Sell Improperly
Registered S-8 Stock

95.
In addition to profiting from the sale of
Heart Tronics shares held by ARC Finance through
the scheme described above using the trusts, Stein
devised a scheme to profit from stock Heart Tronics
issued to Carter from transactions registered with the
Commission on Form S-8.
96.
Starting in 2006, Heart Tronics had
registered millions of shares of Heart Tronics stock on
Form S-8 registration statements filed with the
Commission on June 12, 2006, October 11, 2006,
November 20, 2006, May 19, 2008, and November 5,
2008. These shares were purportedly to be issued
pursuant to the Company's Omnibus Equity
Compensation Plan.
97.
Form S-8 is available to register the offer
and sale of a company's stock to employees or
consultants under certain circumstances. The eligible
employees or consultants must perform permissible,
bona fide services that are not in connection with a
capital raising transaction and do not indirectly
promote or maintain a market for the stock.

App-103
98.
FormS-8 is not available to register offers
and sales of securities to consultants where, by
prearrangement or otherwise, the issuer or a promoter
controls or directs the resale of the securities in the
public market, or the issuer or its affiliates directly or
indirectly receive a percentage of the proceeds from
such resales. In addition, consultants who provide
investor relations or shareholder communications
services may not receive S-8 stock because of the
promotional nature of their services.
99.
An improper use of S-8 shares—i.e.,
under the prohibited circumstances described below is not an effective registration of the S-8 shares, or
their subsequent sale, under Section 5 of the
Securities Act.
100. In approximately January 2008, Stein
drafted and caused Heart Tronics to enter into a
consulting agreement by which Heart Tronics hired
Carter to consult on product engineering and design
with the intention that Carter would be compensated
primarily with S-8 stock. In fact, Carter lacked the
education, skills and resources to provide the services
described in the contract, and he provided no services
to Heart Tronics under the contract.
101. Notwithstanding the fact that Carter
provided no meaningful services to Heart Tronics,
between approximately November 2007 and
September 2008, Heart Tronics paid Carter
approximately $2 million under the consulting
contract in the form of cash (approximately $600,000)
and 6.035 million shares of Heart Tronics stock from
transactions registered on Form S-8 (valued at
approximately $1.4 7 million based on the stock price

App-104
on the date of each issuance). Stein caused the
Company to instruct its transfer agent to issue the
shares to Carter.
102. Between approximately January 2008
and September 2008, Carter sold substantially all the
S-8 stock issued to him under his purported consulting
contract in personal brokerage accounts or in accounts
accessible to both him and Stein, including accounts in
the name of relief defendant Five Investments
Partnership. Carter then transferred substantially all
of the stock, or the proceeds from the sales of the stock,
to bank or brokerage accounts controlled by Stein.
Accordingly, both because of these transfers and
because Carter performed no bona fide services to
Heart Tronics, the issuance of S-8 stock to Carter was
a violation of the registration requirements of Section
5 of the Securities Act.
103. On approximately February 6, 2008,
Heart Tronics also issued approximately 500,000
shares of common stock from transactions registered
on Form S-8 as compensation to at least three other
individuals who were hired by Stein to promote Heart
Tronics stock on the Internet. Stein signed the
contracts with the promoters, created false documents
that identified the promoters as "subcontractors"
working on engineering matters under Carter's
consulting contract, and caused Heart Tronics to issue
the shares to the promoters. Because these individuals
were not providing permissible consulting services in
exchange for the issuance of S-8 stock, these issuances
were also in violation of Section 5 of the Securities Act.

App-105
III.

Stein and Gault Defrauded an Individual
Investor
104. In addition to the above schemes, as
described in more detail below, beginning in late 2008,
in connection with the purchase and sale of securities,
Stein and the Company's then co-CEO, defendant
Willie Gault, defrauded an individual investor in
Heart Tronics out of more than $150,000 for their
personal gain.
105. More
specifically,
between
approximately November and December 2008, an
individual investor (the "Investor") made private
investments of more than $150,000 in Heart Tronics
in exchange for a series of convertible interest-bearing
note securities from the Company. In making his
investment decision, the Investor relied on false
statements by Stein and Gault that Heart Tronics was
close to generating revenue through product sales to
customers in Mexico, South America and Canada.
Stein also told the Investor that Heart Tronics, which
was nearly bankrupt at the time, needed an infusion
of capital to fund operations while marketing the
product and pursuing imminent sales leads.
106. On approximately November 4, 2008, the
Investor wire transferred $100,000 to a joint bank
account he established with Gault in exchange for a
note security issued by the Company. Stein and Gault
had represented that the funds deposited would be
used to pay the Company's operating expenses while
it tried to generate sales revenue to repay the note.
This investment was disclosed by Heart Tronics in its
Form 10-Q for the period ended September 30, 2008,

App-106
filed with the Commission on November 19, 2008, at
Gault's authorization during his tenure as co-CEO.
107. In approximately December 2008, in
exchange for another note, the Investor again
deposited $50,000 in the joint bank account with
Gault, based on Stein and Gault's representations
that the funds would be used to pay Heart Tronics'
operating expenses.
108. However, even though they had told the
Investor that Heart Tronics would use the invested
capital for corporate expenses, Stein and Gault
fraudulently diverted the invested capital for their
own personal use.
109. For example, on the same day as the
Investor's initial transfer to the joint bank account,
$20,000 was transferred to a brokerage account owned
by Gault in the name of relief defendant Catch 83
General Partnership.
110. Over the next approximately two
months, Gault, with Stein's knowledge and
participation, transferred all or substantially all of the
joint bank account's balance, without the Investor's
knowledge or authorization, to his Catch 83 General
Partnership brokerage account. Gault, with Stein's
knowledge and participation, used the money to trade
Heart Tronics' stock in his personal brokerage
account.
111. None of the capital invested by the
Investor was used to pay Company expenses, despite
Stein and Gault's representations. The Investor
suffered a complete loss of his investment.

App-107
112. Despite numerous requests from the
Company's CFO, Gault refused to provide the CFO
access to the joint bank account or provide an
accounting of the assets in the account or a description
of the use of the cash.
IV.

False Statements in Commission Filings,
Sarbanes-Oxley Certifications, and the
Company's Accounting Books and
Records

113. As described above, from late 2006
through 2008, Heart Tronics issued numerous false
and misleading press releases and filed numerous
false and misleading reports with the Commission,
referencing the fictitious sales orders of the Fidelity
100.
114. In addition to the false and misleading
public filings and announcements, Heart Tronics'
books and records reflected various purchase orders,
invoices, and other documents relating to fictitious
sales orders described above that had purportedly
been placed by customers that did not exist.
115. That is because, in part, Heart Tronics
did not have reasonable accounting controls to ensure
that the purported product sales in 2006 through 2008
were to bona fide customers. The Company had no
written accounting policies or procedures, and the
Company's most senior officers, including Gault and
Perkins, exercised no independent judgment but
relied solely on Stein.
116. Through Stein's control of Heart Tronics
and acts of deception, Stein and Carter were able to
circumvent the entire system of accounting controls,
to the extent any existed, and substantially further

App-108
the Company's recording and disclosure of fraudulent
sales orders. Even as the Company's officers and
directors became skeptical of the pending purchase
orders, Perkins knowingly failed to implement a
reasonable system of internal accounting controls.
Likewise, Gault knowingly circumvented the
Company's internal controls to effect the fraud he
committed against the Investor with Stein.
117. While most of the false press releases
and reports described above were issued during
Harmison's tenure as CEO, the false and misleading
Commission filings continued under the leadership of
Gault and Perkins after Harmison resigned in late
April 2008.
118. As Heart Tronics' CEO or co-CEO from
late April 2008 to the present, Perkins reviewed and
signed at least three of the Company's quarterly
reports filed with the Commission, which he knew or
was reckless in not knowing contained materially false
and misleading information concerning, among other
things, its sales orders and potential customers.
119. Perkins also signed materially false and
misleading certifications required by the SarbanesOxley Act of 2002 ("SOX"). In SOX certifications filed
with the Company's Form 10-Qs for the periods ended
March 31, 2008, July 31, 2008, and September 30,
2008 (filed with the Commission on May 15, 2008,
August 15, 2008, and November 19, 2008,
respectively), Perkins falsely represented that based
on his knowledge, each filing did not "contain any
untrue statement of a material fact or [omission]."
Perkins did not have a basis for these representations
because the filings included disclosures of the

App-109
Company's pending sales orders, and Perkins was
aware of numerous red flags concerning those
disclosures—including specific information about
potential fraud associated with the IT Healthcare
shipments to a residential address in Ohio.
120. Further, as part of each of these filings,
Perkins certified that he designed and evaluated the
effectiveness of Heart Tronics' disclosure controls and
procedures and internal controls over financial
reporting. This certification was materially false and
misleading because the Company had no reasonable
system of internal controls, and Perkins undertook no
effort to design, supervise or evaluate the purported
controls. Perkins also falsely certified that he had
disclosed to Heart Tronics' auditor and Audit
Committee of the Board of Directors "any fraud,
whether material or not, that involves management or
other employees who have a significant role in the
small business issuer's internal control over financial
reporting," but he failed to do so, even after the
President informed him of suspected fraud in the IT
Healthcare transaction and Perkins took no action.
121. Gault was designated Heart Tronics' "coCEO for Operations" in October 2008, but he was little
more than a celebrity figurehead who provided no
meaningful oversight to the Company.
122. On or about November 19, 2008, Gault
authorized the filing of both a Form 10-Q for the third
fiscal quarter of 2008 and a SOX certification filed
with the Commission on November 19, 2008, in his
capacity as one of Heart Tronics' principal executive
officers. In fact, Gault never manually signed any
version of either document, in violation of the federal

App-110
securities laws. These documents were electronically
filed with the Commission at Gault's direction under
Gault's signature.
123. Gault's practice was to not review or read
the periodic reports that Heart Tronics filed with the
Commission, even though he was the Company's coCEO for Operations and the reports were filed at his
authorization under his signature.
124. Thus, Gault's SOX certifications were
materially false and misleading. For example,
contrary to his SOX certifications, Gault never
actually "reviewed this quarterly report on form 10Q," and had no basis to state "based on [his]
knowledge, this report does not contain any untrue
statement of a material fact or [omission]" or that
"based on [his] knowledge, the financial statements...
fairly present in all material respects the financial
condition" of Heart Tronics. Similarly, Gault had no
basis for certifying the he was responsible for
establishing and maintaining disclosure controls and
procedures and internal control over financial
reporting. Finally, Gault falsely represented that he
had disclosed to the Company's auditor and Audit
Committee "[a]ny fraud, whether or not material, that
involves management or other employees who have a
significant role in [Heart Tronics'] internal controls
over financial reporting," when he did not do so, even
though Gault himself defrauded an individual
investor into investing money in Heart Tronics during
this period.

App-111
FIRST CLAIM FOR RELIEF
Violations of Section 10(b) of the Exchange Act
and Exchange Act Rule 10b-5
(Heart Tronics, Stein, Carter, Perkins, Gault, and
Nevdahl)
125. Paragraphs 1 through 124 are realleged
and incorporated herein by reference.
Employing Devices, Schemes, and Artifices to
Defraud, and Engaging in Acts, Practices and
Courses of Business Operating As a Fraud or Deceit
in Violation of Section 10(b) and Rule 10b-5(a) and (c)
126. By reason of the conduct described above,
defendants Heart Tronics, Stein, Carter, Gault, and
Nevdahl, in connection with the purchase or sale of
securities, by the use of the means or
instrumentalities of interstate commerce or of the
mails, or of any facility of any national securities
exchange, directly or indirectly, knowingly or
recklessly (l) employed devices, schemes, or artifices to
defraud or (2) engaged in acts, practices, or course of
business which operates or would operate as a fraud
or deceit upon any persons, including purchasers or
sellers of the securities, in violation of Exchange Act
Section 10(b) [15 U.S.C. § 78j(b)] and subsections (a)
and (c) of Exchange Act Rule 10b-5 [17 C.F.R. §
240.10b-5(a) and (c)]. Unless enjoined, these
defendants will continue to violate Exchange Act
Section 10(b) and subsections (a) and (c) of Exchange
Act Rule 10b-5.
Making Misrepresentations and Misleading
Omissions of Material Fact in Violation of Section
10(b) and Rule 10b-5(b)

App-112
127. By further reason of the conduct
described above, defendants Heart Tronics, Stein,
Gault, and Perkins in connection with the purchase or
sale of securities, directly or indirectly, by the use of
the means or instrumentalities of interstate
commerce, or of the mails, or of any facility of any
national securities exchange, knowingly or recklessly,
made untrue statements of material facts or omitted
to state material facts necessary in order to make the
statements made, in light of the circumstances under
which they were made, not misleading, in violation of
Exchange Act Section 10(b) [15 U.S.C. § 78j(b)] and
subsection (b) of Exchange Act Rule 10b-5 [17 C.F.R. §
240.10b-5(b)].
128. More specifically, these defendants
violated and, unless enjoined, will continue to violate,
Exchange Act Section 10(b) [15 U.S.C. § 78j(b)] and
subsection (b) of Exchange Act Rule 10b-5 [17 C.F.R. §
240.10b-5(b)] by the following:
(a) Heart Tronics, through the actions of its
officers, directors, employees, attorneys,
agents, and controlling person, including
but not limited to the issuance of materially
false and misleading press releases,
Commission filings, and other public
broadcasts described above.
(b) Stein’s actions including but not necessarily
limited to making false and misleading
statements about Heart Tronics to an
Investor in late 2008.
(c) Gault’s actions including, but not
necessarily limited to (1) making false and
misleading statements about Heart Tronics

App-113
to an Investor in late 2008; and (2)
authorizing the issuance a false and
misleading periodic report filed with the
Commission on Form 10-Q for Heart
Tronics’ fiscal quarter ended September 30,
2008, including the SOX certifications
included therewith, under his signature.
(d) Perkins actions, including but not
necessarily limited to signing false and
misleading periodic report filed with the
Commission on Form 10-Q for Heart
Tronics’ fiscal quarter ended March 31,
2008, June 30, 2008, and September 30,
2008, including the SOX certifications
included therewith.
SECOND CLAIM FOR RELIEF
Violations of Section 17(a) of the Securities Act
(Heart Tronics, Stein, Gault, Carter, and Nevdahl)
129. Paragraphs 1 through 124 are realleged
and are incorporated herein by reference.
130. Defendants Heart Tronics, Stein, Gault,
Carter, and Nevdahl have, directly or indirectly, by
use of means of instrumentalities of transportation or
communication in interstate commerce or by use of the
mails, in the offer or sale of securities: (a) knowingly
or recklessly employed devices, scheme or artifices to
defraud; (b) knowingly, recklessly, or negligently
obtained money or property by means of any untrue
statements of material fact, or have omitted to state
material facts necessary in order to make the
statements made, in light of the circumstances under
which they were made, not misleading; and (c)

App-114
knowingly, recklessly or negligently engaged in
transactions, practices, or courses of business which
operated or would operate as a fraud or deceit upon
the purchasers of securities; in violation of Section
17(a) of the Securities Act [15 U.S.C. § 77q(a)].
131. More specifically, defendants Heart
Tronics, Stein, Gault, Carter, and Nevdahl violated
and, unless enjoined, will continue to violate, Sections
17(a)(1) and 17(a)(3) of the Securities Act [15 U.S.C. §
77q(a)] by employing the fraudulent schemes and
other activities described above.
132. Furthermore, defendants Heart Tronics,
Stein, and Gault violated and, unless enjoined, will
continue to violate, Section 17(a)(2) of the Securities
Act [15 U.S.C. § 77q(a)] by obtaining money and
property by means of the various materially false and
misleading press releases, Commission filings, and
other public broadcasts described above, as well as the
false and materially misleading statements in late
2008 to an Investor.
THIRD CLAIM FOR RELIEF
Aiding and Abetting Violations of Section 10(b)
of the Exchange Act and Rule 10b-5 Thereunder
(Stein, Carter, Gault, and Nevdahl)
133. Paragraphs 1 through 124 and
paragraphs 126 through 128 above are realleged and
incorporated by reference.
Primary Violations by Heart Tronics and Stein
134. By reason of the conduct described above,
and particularly as set forth in the First Claim for
Relief above, Heart Tronics and Stein violated Section

App-115
10(b) of the Exchange Act [15 U.S.C. § 78j(b)] and Rule
10b-5 thereunder [17 C.F.R. § 240.10b-5].
Defendants Knowingly Provided Substantial
Assistance to the Primary Violations
135. Defendant Stein, acting knowingly,
provided substantial assistance to Heart Tronics'
violations of Section 10(b) of the Exchange Act [15
U.S.C. § 78j(b)] and Rule 10b-5 thereunder [17 C.F.R.
§ 240.10b-5], by his actions described above.
136. Defendant Carter, acting knowingly,
provided substantial assistance to Heart Tronics' and
Stein's violations of Section 10(b) of the Exchange Act
[15 U.S.C. § 78j(b)] and Rule 10b-5 thereunder [17
C.F.R. § 240.10b-5], by his actions described above.
137. Defendant Gault, acting knowingly,
provided substantial assistance to Heart Tronics' and
Stein's violations of Section 10(b) of the Exchange Act
[15 U.S.C. § 78j(b)] and Rule 10b-5 thereunder [17
C.F.R. § 240.10b-5], by his actions described above.
138. Defendant Nevdahl, acting knowingly,
provided substantial assistance to Stein's violations of
Section 10(b) of the Exchange Act [15 U.S.C. § 78j(b)]
and Rule 10b-5 thereunder [17 C.F.R. § 240.10b-5], by
his actions described above.
139. Accordingly, Stein, Carter, Gault, and
Nevdahl aided and abetted the primary violations
described above and, pursuant to Section 20(e) of the
Exchange Act [15 US.C. § 78t(e)], Stein, Carter, Gault,
and Nevdahl are liable for such violations.
140. Unless restrained and enjoined, Stein,
Carter, Gault and Nevdahl will continue to aid and
abet, or will in the future aid and abet, violations of

App-116
Section 10(b) of the Exchange Act and Rule 10b-5
thereunder.
FOURTH CLAIM FOR RELIEF
Controlling Person Liability for Violations
of Section 10(b) of the Exchange Act and
Rule 10b-5 Thereunder
(Stein)
141. Paragraphs 1 through 124 and
paragraphs 126 through 128 above are realleged and
incorporated by reference.
142. Stein (a) directly or indirectly controlled
Heart Tronics; (b) possessed the power and ability to
control Heart Tronics as to its violation of Section
10(b) of the Exchange Act and Exchange Act Rule 10b5; (c) was in a meaningful sense a culpable participant
in Heart Tronics' violations of Section 10(b) of the
Exchange Act and Exchange Act Rule 10b-5, including
by knowingly authorizing and causing Heart Tronics
to issue false and misleading statements in press
releases, Commission filings and other public
broadcasts.
143. Stein is jointly and severally liable with
and to the same extent as Heart Tronics for Heart
Tronics' violations of Exchange Act Section 10(b) and
Exchange Act Rule 10b-5, as stated above in the First
Claim for Relief.
144. By engaging in the conduct described
above, Stein is liable as a controlling person pursuant
to Section 20(a) of the Exchange Act [15 U.S.C. §
78t(a)] by controlling, and possessing the power and
ability to control, Heart Tronics in its violation of
Exchange Act Section 10(b) and Rule 10b-5.

App-117
145. Unless enjoined, Stein will again engage
in conduct that would render him liable, under Section
20(a) of the Exchange Act, for violations of Section
10(b) of the Exchange Act and Rule 10b-5 thereunder.
FIFTH CLAIM FOR RELIEF
Violations Section 5(a) and 5(c) of the
Securities Act
(Heart Tronics, Stein and Carter)
146. Paragraphs 1 through 124 are realleged
and incorporated herein by reference.
147. Defendants Heart Tronics, Stein and
Carter directly or indirectly, singly or in concert with
others: (1) without a registration statement in effect
as to the securities transaction, (a) made use of the
means or instrumentalities of transportation or
communication or the mails in interstate commerce to
sell securities through the use or medium of a
prospectus or otherwise, or (b) carried or caused to be
carried such securities for the purpose of sale or for
delivery after sale; and (2) made use of the means or
instrumentalities of transportation or communication
or the mails in interstate commerce to sell or offer to
buy through the use or medium of a prospectus or
otherwise securities as to which a registration
statement had not been filed as to such securities.
148. By engaging in the conduct described
above regarding the unlawful issuance and sale of
shares of Heart Tronics stock from transactions
registered on Form S-8 pursuant to sham consulting
agreements, defendants Heart Tronics, Stein and
Carter violated and, unless enjoined will continue to

App-118
violate, Sections 5(a) and (c) of the Securities Act [15
U.S.C. § 77e(a) & (c)].
SIXTH CLAIM FOR RELIEF
Violations of Section 13(a), 13(b)(2)(A),
13(b)(2)(B) of the Exchange Act and Exchange
Act Rules 12b-ll, 12b-20, 13a-l, 13a-ll, and 13a-13
(Heart Tronics)
149. Paragraphs 1 through 124 are realleged
and incorporated herein by reference.
150. Section 13(a) of the Exchange Act [15
U.S.C. § 78m(a)] and Exchange Act Rules 13a-1, 13a11 and 13a-13 [17 C.F.R. §§ 240.13a-1, 240.13a-11,
and 240.13a-13] require issuers of securities
registered pursuant to Section 12 of the Exchange Act
to file with the Commission accurate periodic reports.
Exchange Act Rule 12b-20 [17 C.F.R. § 240.12b-20]
requires that periodic reports contain any additional
material information necessary to make the required
statements made in the reports not materially
misleading. Exchange Act Rule 12b-11 [17 C.F .R. §
240.12b-11] requires any document required to be filed
with or furnished to the Commission "shall be
manually signed," or the "signatory to the filing shall
manually sign a signature page or other document
authenticating, acknowledging or otherwise adopting
his or her signature that appears in the filing."
151. As set forth above, defendant Heart
Tronics filed reports with the Commission that
contained materially false and misleading statements
and information, and failed to include additional
material necessary to make the statements and
information, in light of the circumstances in which

App-119
they were made, not misleading, in violation of Section
13(a) of the Exchange Act and Exchange Act Rules
12b-20, 13a-1, 13a-11 and 13a-13.
152. In addition, as set forth above, from at
least December 2005 through December 2008,
defendant Heart Tronics failed to (a) maintain and
keep books, records, and accounts, which, in
reasonable detail, accurately and fairly reflected the
transactions and dispositions of its assets, and (b)
devise and maintain a system of internal accounting
controls sufficient to provide reasonable assurances
that: (i) transactions were executed in accordance with
management's general or specific authorization; (ii)
transactions were recorded as necessary to permit
preparation of financial statements in conformity with
generally accepted accounting principles or any other
criteria applicable to such statements, and to
maintain accountability for assets; (iii) access to assets
was permitted only in accordance with management's
general or specific authorization; and (iv) the recorded
accountability for assets was compared with the
existing assets at reasonable intervals and
appropriate action was taken with respect to any
differences. As a result, Heart Tronics violated
Exchange Act Sections 13(b)(2)(A) and 13(b)(2)(B) [15
U.S.C. §§ 78m(b)(2)(A) and 78m(b)(2)(B)].
153. Furthermore, set forth above, Heart
Tronics failed to obtain and retain manual signatures
on its documents filed with or furnished to the
Commission, or obtain and retain a signature page or
other document authenticating, acknowledging or
otherwise adopting each signatory's signature that
appears in the filing. Heart Tronics failed to furnish to

App-120
the Commission staff, upon its request, a copy of any
or all documents retained pursuant to Exchange Act
Rule 12b-11. As a result, it violated Exchange Act Rule
12b-11.
154. By reason of the foregoing, Heart Tronics
violated and, unless enjoined, will continue to violate
Sections 13(a), 13(b)(2)(A), and 13(b)(2)(B) of the
Exchange Act, and Exchange Act Rules 12b-11, 12b20, 13a-1, 13a-11, and 13a-13.
SEVENTH CLAIM FOR RELIEF
Aiding and Abetting Heart Tronics' Violations
of Sections 13(a), 13(b)(2)(A) and 13(b)(2)(B) of
the Exchange Act and Exchange Act Rules 13a1, 13a-11, 13a-13, and 12b-20
(Stein, Perkins, and Carter)
155. Paragraphs 1 through 124 and
paragraphs 150 through 154 are realleged and
incorporated herein by reference.
156. As set forth in the Sixth Claim for Relief
above, defendant Heart Tronics violated Sections
13(a), 13(b)(2)(A) and 13(b)(2)(B) of the Exchange Act
[15 U.S.C. §§ 78m(a), 78m(b)(2)(A), and 78m(b)(2)(B)]
and Exchange Act Rules 13a-1, 13a-11, 13a-13, and
12b-20 [17 C.F.R. §§ 240.13a-1, 240. 13a-11, 240. 13a13, and 240.12b-20].
157. Based on the facts set forth above,
defendants Stein, Perkins and Carter knowingly
provided substantial assistance to defendant Heart
Tronics in the commission of certain of these
violations. More specifically:
a) Stein, acting knowingly, substantially
assisted Heart Tronics' violations of Sections 13(a),

App-121
13(b)(2)(A) and 13(b)(2)(B) of the Exchange Act and
Exchange Act Rules 13a-1, 13a-11, 13a-13, and 12b20. Accordingly, Stein is liable for such violations
pursuant to Section 20(e) of the Exchange Act [15
U.S.C. § 78t(e)]. Unless restrained and enjoined, Stein
will continue to aid and abet, or will in the future aid
and abet, these violations.
b) Carter, acting knowingly, substantially
assisted Heart Tronics' violations of Sections 13(a) and
13(b)(2)(A) of the Exchange Act and Exchange Act
Rules 13a-1, 13a-11, 13a-13, and 12b-20. Accordingly,
Carter is liable for such violations pursuant to Section
20(e) of the Exchange Act [15 U.S.C. § 78t(e)]. Unless
restrained and enjoined, Carter will continue to aid
and abet, or will in the future aid and abet, these
violations.
c) Perkins, acting knowingly, substantially
assisted Heart Tronics' violations of Section
13(b)(2)(B) of the Exchange Act. Accordingly, Perkins
is liable for such violation pursuant to Section 20(e) of
the Exchange Act [15 U.S.C. § 78t(e)]. Unless
restrained and enjoined, Perkins will continue to aid
and abet, or will in the future aid and abet, this
violation.
EIGHTH CLAIM FOR RELIEF
Violations of Exchange Act Rule 13b2-1
(Stein and Carter)
158. Paragraphs 1 through 124 are realleged
and incorporated herein by reference.
159. Defendants Stein and Carter directly or
indirectly falsified or caused to be falsified books,
records or accounts of Heart Tronics that were subject

App-122
to Section 13(b)(2)(A) of the Exchange Act [15 U.S.C. §
78m(b)(2)(A)].
160. By engaging in the conduct described
above, defendants Stein and Carter violated and,
unless enjoined, will continue to violate Exchange Act
Rule 13b2-1 [17 C.F.R. § 240.13b2-1].
NINTH CLAIM FOR RELIEF
Violations of Section 13(b)(5) of the
Exchange Act
(Stein, Gault, Perkins, and Carter)
161. Paragraphs 1 through 124 are realleged
and incorporated herein by reference.
162. Defendants Stein, Gault, Perkins and
Carter knowingly circumvented or knowingly failed to
implement a system of internal accounting controls or
knowingly falsified, directly or indirectly, or caused to
be falsified books, records or accounts of Heart Tronics
maintained pursuant to Section 13(b)(2) of the
Exchange Act.
163. By engaging in the conduct described
above, defendants Stein, Gault, Perkins and Carter
violated and, unless enjoined, will continue to violate
Section 13(b)(5) [15 U.S.C. § 78m(b)(5)] of the
Exchange Act.
TENTH CLAIM FOR RELIEF
Violations of Exchange Act Rule 13a-14
(Gault and Perkins)
164. Paragraphs 1 through 124 are realleged
and incorporated herein by reference.
165. Gault violated Rule 13a-14 of the
Exchange Act [17 C.F.R. § 240.13a-14] by providing a

App-123
certification required by that rule to be signed on his
behalf, pursuant to a power of attorney or other form
of confirming authority, and by failing to manually
sign the required certification included in Heart
Tronics' quarterly report on Form 10-Q for the third
fiscal quarter of 2008 filed with the Commission on
November 19, 2008.
166. In addition, Gault violated Rule 13a-14
by falsely certifying, among other things, (1) that the
forms fully complied with the requirements of the
Exchange Act and fairly presented, in all material
respects, the financial condition and results of
operations of the company when, in fact, the reports
contained untrue statements of material fact and
omitted material information necessary to make the
reports not misleading; and (2) that he and other
officer(s) of Heart Tronics had designed disclosure
controls and procedures and internal controls over
financial reporting, had evaluated such controls and
procedures, and had identified no deficiencies when,
in fact, Gault had done no such thing.
167. Perkins violated Rule 13a-14 by signing
Heart Tronics' quarterly reports on Form 10-Q for the
first, second, and third fiscal quarters of 2008 (filed
with the Commission on May 15, 2008, August 15,
2008, and November 19, 2008, respectively) certifying,
among other things, (1) that the forms fully complied
with the requirements of the Exchange Act and fairly
presented, in all material respects, the financial
condition and results of operations of the company
when, in fact, the reports contained untrue statements
of material fact and omitted material information
necessary to make the reports not misleading; and (2)

App-124
that he and other officer(s) of Heart Tronics
designed disclosure controls and procedures
internal controls over financial reporting,
evaluated such controls and procedures, and
identified no deficiencies when, in fact, Perkins
done no such thing.

had
and
had
had
had

168. By engaging in the conduct described
above, defendants Gault and Perkins violated
Exchange Act Rule 13a-14 [17 C.F.R. § 240.13a-14].
Unless enjoined, defendants Gault and Perkins will
continue to violate Rule 13a-14 [17 C.F.R. § 240.13a14].
ELEVENTH CLAIM FOR RELIEF
Violation of Section 302(b) of Regulation S-T
(Heart Tronics)
169. Paragraphs 1 through 124 are realleged
and incorporated herein by reference.
170. Defendant Heart Tronics violated
Section 302(b) of Regulation S-T by failing to ensure
that all signatories of the certifications for its
quarterly report on Form 10-Q for the third fiscal
quarter of 2008 (filed with the Commission on
November 19, 2008) had signed the certifications
before or at the time they were electronically filed, and
by failing to retain the original executed documents
for five years, or to provide the Commission staff with
copies of the documents upon request.
171. Unless restrained and enjoined, Heart
Tronics will continue to violate Section 302(b) of
Regulation S-T [17 C.F.R. § 232.302(b)].

App-125
TWELFTH CLAIM FOR RELIEF
Violations of Exchange Acts Section 13(d) and
16(a) and Rules 13d-1 and 16a-3 thereunder
(Stein)
172. Paragraphs 1 through 124 are realleged
and incorporated herein by reference.
173. By means of his indirect control over the
blind trusts that he created to sell Heart Tronics stock
held beneficially by his wife, Stein was the beneficial
owner of more than 10% of Heart Tronics stock.
Pursuant to Section 13(d) of the Exchange Act [15
U.S.C. § 78m(d)] and Rule 13d-1 thereunder [17 C.F.R.
§ 240.13d-1] Stein was required to disclose his status
as a beneficial owner of more than 5% of Heart
Tronics' equity by filing the required forms with the
Commission within 10 days of his becoming such a
beneficial owner. Stein never did so. As a result, Stein
violated and, unless enjoined, will continue to violate
Section 13(d) of the Exchange Act and Rule 13d-1
thereunder.
174. Moreover, not only did Stein beneficially
own more than 10% of Heart Tronics' common stock,
as set forth above, Stein was a de facto officer of Heart
Tronics, in that he performed policy-making functions
for Heart Tronics akin to an officer. Accordingly,
pursuant to Section 16(a) of the Exchange Act [15
U.S.C. § 78p(a)] and Rule 16a-3 [17 C.F.R. § 240. 16a3] thereunder, Stein was required to file with the
Commission an initial statement on Form 3 disclosing
his beneficial ownership position, as well as
subsequent statements of changes on Forms 4 and 5.
Stein never did so. As a result, Stein violated and,

App-126
unless enjoined, will continue to violate Section 16(a)
of the Exchange Act and Rule 16a-3 thereunder.
THIRTEENTH CLAIM FOR RELIEF
Violation of Securities Act Section 17(b)
(Rauch)
175. Paragraphs 1 through 124 are realleged
and incorporated herein by reference.
176. As described in paragraphs 74 through
78 above, defendant Rauch, by use of means or
instrumentalities of interstate commerce or of the
mails, gave publicity to a security for consideration
received, directly or indirectly, from an issuer, without
fully disclosing the receipt of such consideration and
the amount thereof.
177. By reason of the activities described
herein, Rauch violated and, unless enjoined, will
continue to violate Section 17(b) of the Securities Act
[15 U.S.C. § 77q(b)].
FOURTEENTH CLAIM FOR RELIEF
Unjust Enrichment of Tracey Hampton-Stein;
ARC Finance Group, LLC; ARC Blind Trust;
THS Blind Trust; JA YMI Blind Trust; Oak Tree
Investments Blind Trust; and WBT Investments
Blind Trust
178. Paragraphs 1 through 124 are realleged
and incorporated herein by reference.
179. As set forth above, defendant Stein
profited from his illicit schemes by, among other
things, inflating and secretly selling stock in Heart
Tronics that had initially been held beneficially by his
wife, relief defendant Tracey Hampton-Stein, through

App-127
relief defendant ARC Finance Group, LLC. In an effort
to avoid reporting obligations and further deceive the
marketplace about whether or not Heart Tronics'
majority shareholder was selling Heart Tronics stock,
Stein effected these sales, with the assistance of
Hampton-Stein, through the purportedly blind trusts,
relief defendants ARC Blind Trust, THS Blind Trust,
JA YMI Blind Trust, Oak Tree Investments Blind
Trust, and WBT Investments Blind Trust.
180. As further set forth above, from at least
December 2005 through September 2008, while the
share price of Heart Tronics' common stock was
artificially inflated as a result of Stein's illicit
activities, Hampton-Stein, ARC Finance, ARC Blind
Trust, THS Blind Trust, JAYMI Blind Trust, Oak Tree
Investments Blind Trust, and WBT Investments Blind
Trust sold more than $5.8 million worth of Heart
Tronics stock.
181. Relief defendants Tracey HamptonStein, ARC Finance Group, LLC, ARC Blind Trust,
THS Blind Trust, JA YMI Blind Trust, Oak Tree
Investments Blind Trust, and WBT Investments Blind
Trust therefore have no legitimate claim to those
funds, and have thus been unjustly enriched under
circumstances in which it is not just, equitable, or
conscionable for them to retain such profits.
FIFTEENTH CLAIM FOR RELIEF
Unjust Enrichment of Catch 83 General
Partnership
182. Paragraphs 1 through 124 are realleged
and incorporated herein by reference.

App-128
183. Defendant Gault transferred the illgotten gains from his fraud on the Investor to relief
defendant Catch 83 General Partnership and used the
ill-gotten gains to purchase and sell shares of Heart
Tronics stock. Catch 83 General Partnership therefore
has no legitimate claim to those funds, and has thus
been unjustly enriched under circumstances in which
it is not just, equitable, or conscionable for it to retain
such profits.
SIXTEENTH CLAIM FOR RELIEF
Unjust Enrichment of Five Investments
Partnership
184. Paragraphs 1 through 124 are realleged
and incorporated herein by reference.
185. As described above, defendants Stein and
Carter engaged in an illicit scheme to have Heart
Tronics issue stock from transactions registered on
Form S-8 to Carter pursuant to a sham consulting
contract. They then proceeded to transfer such stock,
or to sell that stock and deliver proceeds from such
sales, to relief defendant Five Investments
Partnership, a partnership they had established for
the very purpose of furthering their schemes. Five
Investments Partnership therefore has no legitimate
claim to those funds, and has thus been unjustly
enriched under circumstances in which it is not just,
equitable, or conscionable for it to retain such profits.
PRAYER FOR RELIEF
WHEREFORE, the Commission respectfully
requests that this Court enter a final judgment:
A. preliminarily and permanently enjoining
defendant Heart Tronics from violating Sections 5(a)

App-129
and (c), and Section 17(a) of the Securities Act;
Securities Act Regulation S-T, Rule 302(b); Sections
10(b), 13(a), 13(b)(2)(A) and 13(b)(2)(B) of the
Exchange Act and Exchange Act Rules 10b-5, 12b-11,
12b-20, 13a-1, 13a-11, and 13a-13.
B. preliminarily and permanently enjoining
defendant Stein from violating Sections 5(a) and (c),
and Section 17(a) of the Securities Act; Sections 10(b),
13(b)(5), 13(d), and 16(a) of the Exchange Act; and
Exchange Act Rules 10b-5, 13b2-1, 13d-1, and 16a-3;
and from aiding and abetting violations of Sections
10(b), 13(a), 13(b )(2)(A), and 13(b)(2)(B) of the
Exchange Act and Exchange Act Rules 10b-5, 12b-20,
13a-1, 13a-11, and 13a-13.
C. preliminarily and permanently enjoining
defendant Gault from violating Section 17(a) of the
Securities Act; Sections 10(b) and 13(b)(5) of the
Exchange Act; and Exchange Act Rules 10b-5 and 13a14; and from aiding and abetting violations of Sections
10(b) of the Exchange Act and Exchange Act Rule 10b5.
D. preliminarily and permanently enjoining
defendant Perkins from violating Sections 10(b) and
13(b)(5) of the Exchange Act and Exchange Act Rules
10b-5(b) and l3a-14; and from aiding and abetting
violations of Section l3(b)(2)(B) of the Exchange Act.
E. preliminarily and permanently enjoining
defendant Carter from violating Sections 5(a) and (c),
and Sections 17(a)(1) and (3) of the Securities Act;
Sections 10(b) and 13(b)(5) of the Exchange Act; and
Exchange Act Rules 10b-5(a) and (c), and 13b2-1; and
from aiding and abetting violations of Sections 10(b),

App-130
13(a), 13(b)(2)(A) of the Exchange Act and Exchange
Act Rules 10b-5, 12b-20, 13a-1, 13a-11, and 13a-13.
F. preliminarily and permanently enjoining
defendant Nevdahl from violating Sections 17(a)(1)
and (3) of the Securities Act; Section 10(b) of the
Exchange Act; and Exchange Act Rules 10b-5(a) and
(c); and from aiding and abetting violations of Sections
10(b) of the Exchange Act and Exchange Act Rule 10b5.
G. preliminarily and permanently enjoining
defendant Rauch from violating Section 17(b) of the
Securities Act.
H. ordering defendants Heart Tronics, Stein,
Gault, Perkins, Carter, Nevdahl, and Rauch to
disgorge, jointly and severally, all ill-gotten gains,
plus prejudgment interest thereon, wrongfully
obtained as a result of their illegal conduct, and
provide an accounting of monies and shares of Heart
Tronics stock that they received and the disposition of
such monies and stock;
I. ordering defendants Heart Tronics, Stein,
Gault, Perkins, Carter, Nevdahl, and Rauch to pay
civil penalties pursuant to Section 20(d) of the
Securities Act [15 U.S.C. § 77t(d)] and Section 21(d)
[15 U.S.C. § 78u(d)] of the Exchange Act; and
J. permanently barring defendants Stein,
Gault, Perkins and Carter, pursuant to Section 20(e)
of the Securities Act [15 U.S.C. §77t(e)] and Section
21(d)(2) of the Exchange Act [15 U.S.C. §78u(d)(2)],
from serving as an officer or director of any issuer that
has a class of securities registered pursuant to Section
12 of the Exchange Act [15 U.S.C. §781] or that is

App-131
required to file reports pursuant to Section 13 of the
Exchange Act [15 U.S.C. §78m];
K. prohibiting defendants Stein, Gault,
Perkins, Carter and Rauch from engaging in any
offering of penny stock pursuant to Section 20(g) of the
Securities Act [15 U.S.C. §77t(g)] and Section 21(d)(6)
of the Exchange Act [15 U.S.C. § 78u(d)(6)];
L. ordering relief defendants Tracey HamptonStein, ARC Finance Group, LLC, ARC Blind Trust,
THS Blind Trust, WBT Investments Blind Trust,
JAYMI Blind Trust, Five Investments Partnership,
and Catch 83 General Partnership to disgorge, jointly
and severally, all monies, plus prejudgment interest
thereon, obtained as a result of the defendants' illegal
conduct alleged in this Complaint, and provide an
accounting of monies and shares of Heart Tronics
stock that they received and the disposition of such
monies and stock;
M. granting the Commission such other relief
as is just and appropriate.
Dated: December 20, 2011 Respectfully submitted,
[handwritten: signature]
David J. Van Havermaat
Cal.Bar No.175761
Local Counsel
vanhavermaatd@sec.gov
Securities and Exchange
Commission
5670 Wilshire Boulevard,
11th Floor
Los Angeles, CA 90036
Telephone:

App-132
(323) 965-3840
Facsimile: (323) 965-3908
Mark D. Lanpher
lanpherm@sec.gov
Securities and Exchange
Commission
100 F. Street, NE
Washington, DC 20549
Tel: (202) 551-4879
Fax: (202) 551-9282
Of Counsel
Stephen L. Cohen
Charles E. Cain
Adam J. Eisner
Rachel E. Nonaka
Securities and Exchange Commission
100 F. Street, NE
Washington, DC 20549

App-133
Appendix H
CONSTITUTIONAL PROVISION INVOLVED
U.S. Const. amend. VII
In suits at common law, where the value in
controversy shall exceed twenty dollars, the right of
trial by jury shall be preserved, and no fact tried by a
jury, shall be otherwise reexamined in any court of the
United States, than according to the rules of the
common law.

